<html>
<title> - OVERSIGHT OF U.S. CITIZENSHIP AND IMMIGRATION SERVICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                
                  OVERSIGHT OF U.S. CITIZENSHIP AND 
                          IMMIGRATION SERVICES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                        WEDNESDAY, JULY 29, 2020

                               ----------                              

                           Serial No. 116-85

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


               Available via: http://judiciary.house.gov
               
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-554                     WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------   

                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair

ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
SYLVIA R. GARCIA, Texas              BEN CLINE, Virginia
JOE NEGUSE, Colorado                 KELLY ARMSTRONG, North Dakota
LUCY McBATH, Georgia                 W. GREGORY STEUBE, Florida
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        PERRY APELBAUM, Majority Staff Director & Chief of Staff
                 CHRIS HIXON, Minority Staff Director 
                                 ------                                

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair

J. LUIS CORREA, California           KEN BUCK, Colorado, Ranking Member
SYLVIA R. GARCIA, Texas              ANDY BIGGS, Arizona
JOE NEGUSE, Colorado                 TOM McCLINTOCK, California
DEBBIE MUCARSEL-POWELL, Florida      DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North Dakota
SHEILA JACKSON LEE, Texas            W. GREGORY STEUBE, Florida
MARY GAY SCANLON, Pennsylvania

                    DAVID SHAHOULIAN, Chief Counsel
                    ANDREA LOVING, Minority Counsel
                           
                           C O N T E N T S

                              ----------                              

                        Wednesday, July 29, 2020

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, Chair, a member of Congress from the 
  State of California, Subcommittee on Immigration and 
  Citizenship....................................................     1
The Honorable Ken Buck, Ranking Member, a member of Congress from 
  the State of Colorado, Subcommittee on Immigration and 
  Citizenship....................................................     3

                               WITNESSES
                                Panel 1

Joseph Edlow, Deputy Director for Policy, U.S. Citizenship and 
  Immigration Services
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7

                                Panel 2

Sharvari Dalal-Dheini, American Immigration Lawyers Association
  Oral Testimony.................................................    71
  Prepared Statement.............................................    74
Michael Knowles, President, American Federation of Government 
  Employees, Local 1924 AFL-CIO
  Oral Testimony.................................................    86
  Prepared Statement.............................................    88
Doug Rand, Senior Fellow, Director, Technology and Innovation 
  Initiative, Federation of American Scientists
  Oral Testimony.................................................    93
  Prepared Statement.............................................    95
  Supplemental Statement.........................................   238
Jessica Vaughan, Director of Policy Studies, Center for 
  Immigration Studies, and Instructor for Senior Law Enforcement 
  Officers, Northwestern University Center for Public Safety, 
  Illinois
  Oral Testimony.................................................   257
  Prepared Statement.............................................   259

          LETTER, MATERIAL, ARTICLES SUBMITTED FOR THE RECORD

A memo for the record ``Remote Naturalization Oaths are Legally 
  Permissible,'' by Ethan Nasr and Peggy Gleason, submitted by 
  the Honorable J. Luis Correa, a member of Congress from the 
  State of California, Subcommittee on Immigration and 
  Citizenship....................................................    24
Statement for the Record by Pamela Roberts, Citizenship and 
  Family Unification Staff Attorney, HIAS Pennsylvania, submitted 
  by the Honorable Mary Gay Scanlon, a member of Congress from 
  the State of Pennsylvania, Subcommittee on Immigration and 
  Citizenship....................................................    46
Statement for the Record by American Immigration Council, 
  submitted by the Honorable Mary Gay Scanlon, a member of 
  Congress from the State of Pennsylvania, Subcommittee on 
  Immigration and Citizenship....................................    52
Statements for the Record submitted the Honorable Zoe Lofgren, 
  Chair, a member of Congress from the State of California, 
  Subcommittee on Immigration and Citizenship

     1. American Friends Service Committee.......................   278
     2. Statement for the Record from American Immigration 
      Council....................................................   281
     3. Statement for the Record from Asian Americans Advancing 
      Justice (AAJC).............................................   288
     4. Statement for the Record from Central American Resource 
      Center of San Francisco (CARECEN SF).......................   295
     5. Statement for the Record from Church World Service.......   296
     6. Statement for the Record from Cities for Action..........   297
     7. Statement for the Record from Coalition for Humane 
      Immigrant Rights (CHIRLA)..................................   299
     8. Article for the record ``How the Trump Administration's 
      Xenophobic Ideology Created a Financial Crisis at USCIS,'' 
      by Ur Mendoza Jaddou, Director, DHS Watch..................   302
     9. Statement for the Record from Immigration Legal Resource 
      Center (ILRC)..............................................   314
    10. Statement for the Record from Invest in the USA (IIUSA)..   320
    11. Statement for the Record from Kids in Need of Defense 
      (KIND).....................................................   336
    12. Statement for the Record from Lutheran Immigration and 
      Refugee Service............................................   339
    13. Statement for the Record from National Association of 
      Latino Elected and Appointed Officials (NALEO).............   346
    14. Statement for the Record from National Immigration Law 
      Center.....................................................   351
    15. Statement for the Record from National Partnership for 
      New Americans..............................................   355
    16. Statement for the Record from President's Alliance on 
      Higher Education and Immigration...........................   362
    17. Statement for the Record from Yael Schacher, Senior U.S. 
      Advocate, Refugees International...........................   366
    18. Statement for the Record from Sanaa Abrar, Advocacy 
      Director, United We Dream..................................   369
    19. Statement for the Record from Most Reverend Mario E. 
      Dorsonville, Auxiliary Bishop of Washington, U.S. 
      Conference of Catholic Bishops.............................   377
    20. Statement for the Record from Marilyn Levy, Staff 
      Attorney, Wind of the Spirit Immigrant Resource Center.....   387

                                APPENDIX

Letter for the Record to Honorable Chad F. Wolf, Acting 
  Secretary, and Joseph Edlow, Deputy Director for Policy, from 
  Patrick Leahy, Vice Chairman, and Jon Tester, Ranking Member, 
  Subcommittee on Homeland Security, submitted by the Honorable 
  Sylvia R. Garcia, a member of Congress from the State of Texas, 
  Subcommittee on Immigration and Citizenship....................   392
Letter for the Record to the Honorable Speaker Pelosi, Leader 
  Schumer, Leader McConnell, and Leader McCarthy submitted by the 
  Honorable Sylvia R. Garcia, a member of Congress from the State 
  of Texas, Subcommittee on Immigration and Citizenship..........   394
Letter for the Record to Honorable Chad F. Wolf, Acting 
  Secretary, submitted by the Honorable Sylvia R. Garcia, a 
  member of Congress from the State of Texas, Subcommittee on 
  Immigration and Citizenship....................................   394
Statement for the Record from HJC Immigration and Citizenship 
  Subcommittee, submitted by the Honorable Sylvia R. Garcia, a 
  member of Congress from the State of Texas, Subcommittee on 
  Immigration and Citizenship....................................   406
Statement for the record ``Protecting American Workers Through a 
  Stable and Reliable Seasonal Workforce'' from H-2B Workforce 
  Coalition, submitted by the Honorable Steve Chabot, a member of 
  Congress from the State of Ohio, Committee on the Judiciary....   407
Statement for the Record from The American Association of 
  Physicists in Medicine (AAPM)..................................   408
Statement for the Record from Bart Klein, Attorney at Law........   411
Item for the record In the United States District Court for the 
  Western District of Washington by Bart Klein...................   413
Statement for the Record from Marketa Lindt, President, American 
  Immigration Lawyers Association................................   466
Statement for the Record from Miriam Feldblum, Executive 
  Director, Presidents' Alliance on Higher Education and 
  Immigration....................................................   478

 
         OVERSIGHT OF U.S. CITIZENSHIP AND IMMIGRATION SERVICES

                              ----------                              


                        Wednesday, July 29, 2020

                        House of Representatives

              Subcommittee on Immigration and Citizenship

                       Committee on the Judiciary

                             Washington, DC

    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Zoe Lofgren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lofgren, Jayapal, Correa, Garcia, 
Neguse, Mucarsel-Powell, Escobar, Jackson Lee, Scanlon, Buck, 
Biggs, McClintock, Lesko, and Steube.
    Staff Present: Madeline Strasser, Chief Clerk; Moh Sharma, 
Member Services and Outreach Advisor; Anthony Valdez, Staff 
Assistant; John Williams, Parliamentarian; Betsy Lawrence, 
Counsel; David Shahoulian, Chief Counsel; Ami Shah, Counsel; 
Alex Wang, Fellow; Andrea Loving, Minority Chief Counsel for 
Immigration; and Kyle Smithwick, Minority Counsel.
    Ms. Lofgren. The Subcommittee on Immigration and 
Citizenship will now come to order.
    Without objection, the chair is authorized to declare a 
recess of the Subcommittee at any time.
    We welcome everyone to this morning's hearing on oversight 
of U.S. Citizenship and Immigration Services. Before we begin, 
I'd like to remind Members again that we have established an 
email address and distribution list that's dedicated to 
circulating exhibits, motions, or other written material that 
Members might want to offer as part of our hearing today.
    If Members would like to submit materials, please send them 
to the email address that has been previously distributed to 
member offices, and we will circulate the materials to Members 
and staff as quickly as we can.
    I would also remind all Members that guidance from the 
Office of Attending Physician states that face coverings are 
required for all meetings in an enclosed space, such as the 
Subcommittee hearings, and it's expected that individuals in 
the room will wear a mask except when they are speaking.
    I would now recognize myself for an opening statement. So, 
today's hearing, the oversight of U.S. Citizenship and 
Immigration Services, comes at a critical time. Since January 
of 2017, we have watched this Administration strip away USCIS' 
service-oriented mission and eradicate commonsense policies 
that improve agency efficiency.
    Instead, the Administration has implemented countless new 
policies that add bureaucratic red tape, increase costs, and 
restrict and reduce immigration channels. As is often the case 
today, the COVID-19 pandemic has exposed this mismanagement.
    Now, absent funding from Congress, 13,400 USCIS employees 
face the threat of furlough just 1 month from now. Agency 
officials have proposed repaying appropriated funds by imposing 
an additional 10 percent surcharge on all requests for 
immigration benefits.
    The Agency blames its financial crisis on reduced filings 
during the COVID pandemic. While this reduction in filings 
contributed to the crisis, USCIS was well on its way to 
insolvency long before the COVID-19 hit our shores.
    Last year, this Subcommittee held a hearing to examine how 
restrictive policy and procedural changes led to record high 
case backlogs and processing delays. Despite large staff 
increases and decreases in immigration filings over the past 2 
years, the backlog has only grown larger. The case backlog now 
stands at a staggering 2.5 million cases.
    USCIS frequently points to the growing case backlog as 
justification to hire additional adjudicators. Since 2016, the 
Agency has added about 5,000 new employees while hiking fees to 
pay for the added salary cost.
    We observed this only 8 months ago when USCIS proposed an 
additional 21-percent fee increase, quote, to fund additional 
staff and, quote, perform more national security betting. Yet, 
in the same role, USCIS acknowledges that the additional staff 
it plans to hire will not measurably improve processing times.
    Now, USCIS has proposed a 10-percent surcharge on top of 
the 21-percent surcharge proposed earlier to repay appropriated 
funds. The Agency is forcing customers to not only shoulder the 
cost of misguided management and policy choices but to pay even 
more for slower services. This really is not acceptable.
    Additionally, even as USCIS cites the drop in filings as 
the cause of its troubles, the Administration continues to take 
actions to restrict immigration further driving USCIS revenues 
into the ground.
    For example, on June 18, 2020, the Supreme Court ruled that 
the Administration's rescission of DACA was unlawful. That 
means the DACA program that existed before the President's 
unlawful action was taken was reinstated. Just yesterday, DHS 
issued a new memorandum announcing that it is reconsidering the 
DACA program and shortening the permissible renewal period.
    DHS also instructed USCIS to reject all initial DACA 
applications. While the future of DACA remains uncertain, one 
thing is clear: By holding new DACA applications at processing 
facilities for at least the week prior to issuance of this new 
memo, USCIS was directly violating the Supreme Court's 
judgment.
    Similarly, high demand for immigrant visas, it now seems 
that thousands of visas will go unused this year. Chair Nadler 
and I first raised this issue with the Administration in May, 
but we receive no response. In fact, instead of advancing 
priority dates to increase adjustment of status filings, the 
Administration appears to have stifled priority date movement 
to prevent such filings. Indeed, only recently, after we sent a 
second letter did we see more movement in priority dates. 
Unfortunately, given how late it is in the fiscal year, this is 
likely too little too late, but perhaps that was the point.
    I look forward to hearing from our first witness, Mr. 
Edlow, deputy director for policy at USCIS, on these and other 
issues. I also look forward to hearing from the witnesses on 
our second panel so that we can understand how agency 
mismanagement and the threat of furloughs has impacted 
immigrant communities, U.S. businesses, and USCIS employees.
    When you consider all that the Administration has done to 
restrict legal immigration over the past 3 and a half years, 
it's no wonder that USCIS now stands before us hat in hand 
asking for money to maintain current operations. The Trump 
Administration has been characterized by incompetence, from the 
catastrophic response to COVID-19 to mismanagement of this 
agency.
    However, I hope we can all agree that no good purpose will 
be served if we allow the immigration system to grind to a 
halt. It's my hope that today's hearing will further current 
negotiations by helping us to better understand how we got to 
where we are, where we are today, and that we can find a 
solution that all of us can embrace.
    It's now my pleasure to recognize the Ranking Member of the 
subcommittee, Mr. Buck from Colorado, for his opening 
statement.
    Mr. Buck. Thank you, Madam Chair. Madam Chair, let me tell 
you, it is a pleasure to be back in the Judiciary Committee 
hearing room. It feels like a home that I haven't visited for a 
while, and it's just nice to get back to a little sense of 
normality.
    Thank you for holding this hearing to conduct oversight of 
the U.S. Citizenship and Immigration Services. This 
Subcommittee has an important oversight responsibility. USCIS 
has continued its important work in the face of COVID-19, the 
COVID-19 pandemic, and the resulting office closures and budget 
shortfalls the Agency has experienced. In fact, the Agency has 
gone out of its way to ease the process for benefit applicants 
wherever possible.
    Since March, the Agency has conducted over 106,500 
naturalization ceremonies, approved over 87,600 applications 
for adjustment of status, and ensured our agricultural system 
remains competitive by allowing more than 130,500 H-2A 
employees to enter the country. While delays remain, these 
numbers show that USCIS takes its mission seriously.
    The Agency does face large challenges going forward, 
including the previously mentioned $1.2 billion budget 
shortfall, the potential need to furlough up to 75 percent of 
the Agency's workforce, and the residual delays in benefit 
adjudication. However, I have confidence the Agency will 
continue administering our Nation's immigration laws fairly and 
consistently no matter the circumstances.
    Mr. Edlow, thank you for taking the time out of your busy 
schedule to come today to answer important questions about the 
work you are doing at USCIS. I look forward to hearing the 
challenges and successes of USCIS as well as any ways in which 
we in Congress can be helpful to the Agency's mission.
    I thank the chair and yield back.
    Ms. Lofgren. Thank you, Mr. Buck.
    I would now like to introduce our first witness.
    Joseph Edlow joined the U.S. Citizenship and Immigration 
Services in July 2019, first serving as chief counsel for the 
Agency before transitioning to his current role as deputy 
director for policy in February of this year.
    Prior to this, he served as Deputy Assistant Attorney 
General in the Office of Legal Policy at the Department of 
Justice and Assistant Chief Counsel at the Baltimore field 
office of Immigration and Customs Enforcement.
    Mr. Edlow also worked for 3 years in the House of 
Representatives, first in the office of our former colleague 
Raul Labrador, and then as counsel for this very subcommittee. 
We welcome him back to the Subcommittee today and look forward 
to his testimony.
    Mr. Edlow, if you would please rise, I will begin by 
swearing you in.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief so help you God?
    Mr. Edlow. I do.
    Ms. Lofgren. Let the record show the witness answered in 
the affirmative. Thank you. Please be seated.
    Please note that your written statement will be entered 
into the record in its entirety. Accordingly, I ask that you 
try to summarize your testimony in 5 minutes, and to help you 
stay within that time there's a timing light on your table. 
When the light switches from green to yellow you have 1 minute 
to sum up, and when the light turns red, it means your 5 
minutes have expired and we'd ask you to try and stop at that 
point.
    So, Mr. Edlow, you may begin.

                   STATEMENT OF JOSEPH EDLOW

    Mr. Edlow. Thank you. Chair Lofgren, Ranking Member Buck, 
and distinguished Members of the subcommittee, thank you for 
the opportunity to testify today. USCIS' mission is to 
safeguard the integrity and promise of the Nation's lawful 
immigration system by efficiently and fairly adjudicating 
requests for immigration benefits while protecting Americans, 
securing the homeland, and honoring our values.
    I am here today on behalf of the nearly 20,000 dedicated 
and hardworking professionals of USCIS. It is my honor to lead 
them and the day-to-day operations of this agency. These are 
difficult times for our Nation and for USCIS. The pandemic has 
affected virtually all aspects of American life and has had a 
dramatic effect on USCIS operations and revenue.
    Despite our best efforts, we have been forced to issue 
furlough notices to nearly 70 percent of our employees. Without 
funding from Congress, we will have no choice but to proceed 
with large-scale furloughs on August 30th.
    As you know, USCIS is unique among Federal agencies. We are 
97 percent fee funded. The fees we collect for certain 
petitions and applications pay for our operations, including 
the salaries of our workforce. Those fees also cover the cost 
of adjudicating many immigration requests and benefits for 
which we do not currently collect a fee, such as asylum, 
refugee status, humanitarian visas, deferred action, and 
satisfactory departure.
    Unlike an appropriated agency, a fee-funded agency must 
have sufficient funding remaining on September 30th to carry 
over on October 1st to begin and sustain operations for the new 
fiscal year. The pandemic has virtually eliminated this 
necessary carryover funding. Without funds from Congress or a 
large-scale furlough, USCIS will run out of money in early 
fiscal year 2021.
    We have done what we can to mitigate this crisis by 
reducing spending, instituting a hiring freeze, and identifying 
more than $100 million of unliquidated obligations between 
April and June. We began the year working to adjust agency 
spending as we had already identified that our current fee 
schedule was insufficient to recover estimated costs this 
fiscal year.
    I have spoken to many of you and your staffs about our 
fiscal crisis and our funding proposal, which will ensure that 
USCIS continues operations throughout this fiscal year and 
start fiscal year 2021 on strong financial footing. Most 
important to me are the men and women of USCIS who continue to 
successfully perform our agency's critical mission under such 
uncertain circumstances in these unprecedented times.
    Facing a pandemic, USCIS employees engaged innovative 
strategies to continue limited naturalization ceremonies to 
prevent the spread of COVID-19. While our slowdown did delay 
taking the oath for some, I am proud to report that all 110,000 
of those pending oaths will be completed by the end of this 
week.
    This is merely a snapshot of the spectacular work done by 
the talented and dedicated USCIS workforce. Starting in June, 
we safely and effectively reopened most USCIS offices while 
protecting applicant and employee safety during the ongoing 
COVID-19 pandemic.
    At field offices, we implemented a variety of measures, 
such as providing hand sanitizer at entry points, requiring 
facial coverings, installing physical barriers and social 
distancing markings.
    At asylum offices, USCIS began conducting video facilitated 
asylum interviews using available technology, including mobile 
devices provided by USCIS to ensure that the asylum officer, 
applicant, interpreter, and representative can fully and safely 
participate in the interview while maintaining social 
distancing.
    As our offices resume in-person services, USCIS looks to 
pick up where we left off. Last year, USCIS naturalized 834,000 
new U.S. citizens, an 11-year high. The Agency completed over 
103,000 credible fear claims, a record high and more than 113 
percent increase since 2015, as well as approximately 79,000 
affirmative asylum applications.
    The dedication and commitment of the USCIS workforce is 
inspiring, even as the financial situation and the specter of 
large-scale furloughs have been the toughest obstacle we have 
faced. I look forward in doing whatever it takes in working 
with Congress to resolve this issue.
    Lastly, I would like to acknowledge the productive 
conversation I have had with witnesses set to appear on the 
second panel later this morning. I believe we share a strong 
commitment to the USCIS workforce and remain confident that we 
can work together to find a resolution.
    Thank you again for the opportunity to testify today. I 
look forward to answering any questions you may have.
    [The statement of Mr. Edlow follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you, Mr. Edlow.
    This is the time when Members of the Subcommittee may ask 
questions of our witness for 5 minutes each, and I will begin.
    As you're aware, except for uncapped categories, such as 
immediate relatives, our immigration law provides a certain 
number of employment and family-based immigrant visas each 
fiscal year. There are millions of people who have been waiting 
for decades until a visa is available to them.
    According to recent reports, an estimated 5 million 
individuals with approved immigrant visa petitions are waiting 
in the immigrant visa backlog. Mr. Edlow, do you agree that the 
Immigration and Nationality Act requires these visas to be 
issued if there is enough demand?
    Mr. Edlow. Congresswoman, I agree that we have a duty to 
get as close to the immigrant visa caps that Congress has set 
per year as we possibly can, and we are making progress this 
year to getting there. Obviously, with the in-person services 
closed for a number of months, including at application support 
centers, we have not been able to move as many as we would have 
liked to through the process.
    That said, as of July 16th, we have already allocated 86.8 
percent of the fiscal year annual limit for employment-based 
preference categories. So, we are moving. That is over 106,689 
visas that have been allocated, and of that, most of that was 
USCIS.
    Ms. Lofgren. As you know, Mr. Edlow, several weeks ago, we 
were advised by DHS officials that, as of April 29th, 
approximately 126,000 family-based visas and nearly 75,000 
employments-based visas were available. Mr. Nadler and I had 
written about this, and in June, Mr. Nadler and I sent a 
follow-up letter to the Secretaries of State and Homeland 
Security expressing our concern that the departments were not 
faithfully complying with the law to ensure full use of 
statutorily authorized immigrant visa numbers for fiscal year 
2020 and 2021. We copied you on the letter. We asked for a 
response to this letter. We asked for a staff-level briefing by 
July 6th, but to date neither has been provided. Now, why is 
that?
    Mr. Edlow. Congresswoman, I apologize. My understanding was 
that you had received a response on that letter. It was not 
drafted by me, but I have seen that response. If you have not 
gotten that, I will ensure that you and Chair Nadler get that 
immediately.
    Additionally, we are happy at USCIS to provide you a 
briefing with our role with regard to analyzing and determining 
how to move the visa bulletin forward and how we work with the 
Department of State on that. As to the Department of State's 
role, I would defer to them, of course. I will check in on 
that. Congresswoman, I know that that letter has been drafted.
    Ms. Lofgren. Well, let me just tell you, I understand from 
our staff that we have not received a response, so we'll look 
forward to that.
    Due to the suspension of consular services and various 
residential proclamations, overseas demand for immigrant visas 
has certainly decreased in recent months, but it's well 
documented there's a great deal of demand for such visas from 
persons already legally in the United States.
    Visa availability, as reflected in the visa bulletin, is 
set by the Department of State in consultation with USCIS. Do 
you or other political appointees play a role in that 
consultation process?
    Mr. Edlow. Congresswoman, that consultation process is, as 
you said, completed by the Department of State with 
consultation from USCIS. I have been involved in discussions on 
that occasionally. By and large, month in and month out, I am 
not typically involved in those conversations. In April, I was 
involved, and I believe the letter that we were supposed to 
have sent back to you would have addressed that and would have 
identified that.
    Certainly, as we were trying to figure out what our next 
steps were with being able to process under our limitations 
from the pandemic, we did want to be careful as to moving that 
number forward, but then that number has significantly moved 
forward in the months following. Our letter explains that.
    Ms. Lofgren. Mr. Edlow, let me just be frank. Members of my 
staff have received information from USCIS employees indicating 
that DHS political leadership overruled career officials in 
setting the priority dates for the July visa bulletin. Did you 
have a role in that?
    Mr. Edlow. Congresswoman, I have no knowledge of that at 
all.
    Ms. Lofgren. Okay.
    Mr. Edlow. I was not involved in setting the July visa 
bulletin at all.
    Ms. Lofgren. Then it's political interference elsewhere, 
and we will try to follow up with that.
    I'm nearing the end of my time. I'd like to conclude by 
saying that, while I understand USCIS had to temporarily 
suspend in-person services and close field offices earlier this 
year, that doesn't excuse the Administration from complying 
with its congressional mandate to ensure full use of immigrant 
visa numbers.
    In addition, there are many ways to move cases through the 
system without person-to-person contact, including interview 
waivers in clearly approvable cases, although I understand the 
Agency suspended processing of those cases as well.
    In my final minute, I would just like to raise the issue of 
the Supreme Court decision--other Members may want to talk 
later--about DACA. So, the Supreme Court ruled that what the 
Administration did was unlawful. In putting aside yesterday's 
reconsidering and prohibiting new applications, the Department 
was clearly in violation of the Supreme Court decision for at 
least a week and maybe currently.
    I would just like to note how distressing it is that at the 
hearing, which took place 40 days after the Supreme Court's 
decision was issued, DOJ lawyers stated that the USCIS had not 
found the time or resources to change their website.
    We expect compliance with the law. We certainly expect 
compliance with Supreme Court decisions. I don't know whether 
it was your decision or Mr. Wolf's or Mr. Cuccinelli's or the 
White House, but compliance with that decision was 
disappointing at best.
    I see that my time is expired. So, I will now turn to Mr. 
Buck for his 5 minutes of questioning.
    Mr. Buck. I thank the chair. Because of the unique 
situation, Madam Chair, I'm going to recognize the 
Congresswoman from Arizona, Ms. Lesko, for her time, and I 
appreciate the chair's indulgence.
    Ms. Lofgren. Sure.
    Ms. Lesko. Thank you, Madam Chair.
    Thank you, Mr. Edlow, for being here today.
    I have a couple of questions actually about DACA. I believe 
that when President Obama originally did the executive order 
that gave DACA recipients what they get today, it was 
unconstitutional because it wasn't done through Congress.
    Of course, we had the recent Supreme Court ruling, which, 
quite frankly, I didn't agree with that, but that being it, I 
understand that currently under DACA you have to have 
continuously resided in the United States from June 15, 2007. 
We're now in 2020. So, does that mean that the youngest person 
in DACA would be about 13 years old that would apply new, new 
applications, is my understanding?
    Mr. Edlow. For applications when they were accepted, yes, 
if the person had been here, I guess, depending on when they 
were born, yes. They would've had to have been here in 2007, so 
yes.
    Ms. Lesko. Okay. So, I just am trying to understand, 
because I'm not in your field so I don't understand, why would 
somebody that is 13 years old not have applied for DACA yet? 
Like why--because the changes were for new applicants, right? 
Wasn't that the change that was done yesterday by the Trump 
Administration, new applications were put on pause?
    Mr. Edlow. Well, let me back up a little bit and explain.
    Ms. Lesko. Sure.
    Mr. Edlow. So, back in 2017, through Acting Secretary Duke, 
the now--that memo has now been rescinded by Acting Secretary 
Wolf's memo, but Secretary--Acting Secretary Duke rescinded 
DACA, and in doing so, there was litigation that ensued. Due to 
that litigation, the Department and the government was enjoined 
from ending the program with regard to renewals.
    So, we kept processing renewal applications at that point. 
However, we did stop all new applications. So, new applications 
have not been accepted since--I don't--I apologize. I don't 
remember the date off the top of my head but sometime in 2017 
or 2018, and that's been the status quo since then, and then 
until now when we have the Supreme Court that ultimately found 
that the program could be rescinded. There was no question 
about that, about the legality of rescinding it; it was the 
manner in which Acting Secretary Duke rescinded it.
    Accordingly, what we took--what we did at that point was 
begun to hold new applications while we continued to talk with 
our attorneys, both within the Department as well as with the 
Department of Justice, to figure out what the next steps would 
be. But there has not been an opportunity to apply for an 
initial DACA--to have that process since 2017, 2018.
    Ms. Lesko. Thank you. That makes sense to me. Thank you for 
explaining it to me.
    Can we pivot now to the backlog cases? I think in the 
opening statement Madam Chair had said that you're really far 
behind in processing, that the Trump Administration has done a 
terrible job. I'm paraphrasing, something to that effect. Can 
you kind of respond to that? Because I have a bunch of 
information here that actually you've done a lot of processing 
in different fields. Would you like to respond?
    Mr. Edlow. I would be happy to. Thank you, Congresswoman. 
So, in the queue of cases that are outside normal processing 
times, which is what is typically referred to as the, quote, 
``backlog'' unquote, we do have right now about 2.5 million. We 
also have another 2.5 million cases that are in processing 
times.
    There are the third group of cases that are cases that are 
pending but are outside of USCIS' ability to control. For 
example, we have request for evidence out or we're waiting for 
something from somebody else.
    So, we are absolutely making progress and doing whatever we 
can to add efficiencies into the system and using new methods 
of e-filing and e-processing to bring down the time of 
adjudication.
    Now, expediency is absolutely critical. I'm not saying it's 
not. We have to balance that with making sure that we are doing 
a fulsome adjudication and properly ensuring that the integrity 
of the system is met. We cannot allow speed to be the enemy of 
making sure that the applications are approvable.
    So, I support the career men and women of my agency who 
have done a phenomenal job of ensuring that their adjudications 
are within the law, they're within the scope, and I'm very 
impressed with the work that I've seen since I've taken over at 
the helm of USCIS.
    Ms. Lofgren. The gentlelady's time has expired. So, let's 
turn now to the gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Madam Chair.
    Mr. Edlow, thank you for being here. Since its inception, 
the Deferred Action for Childhood Arrivals program has 
benefited over 825,000 individuals. That is 825,000 people who 
have stepped out of the shadows and reached new academic and 
professional heights and contributed tremendously to our 
country. DACA also enjoys broad support among the American 
public, with 66 percent of American voters supporting the 
program.
    Mr. Edlow, I would like to discuss the recent Supreme Court 
decision describing or declaring the Administration's 
rescission of DACA unlawful. Putting aside yesterday's DHS 
memo, quote, reconsidering the DACA program, do you agree with 
the Supreme Court's ruling that the Administration's rescission 
of DACA was arbitrary and capricious? Yes or no.
    Mr. Edlow. I have said I don't agree with it.
    Ms. Jayapal. Okay. Based on that ruling, the Administration 
should have immediately returned the program to its original 
form, which includes processing new DACA applications, which 
your agency did not do. In fact, by not processing new DACA 
applications prior to the new memo, USCIS was in direct 
violation of the Supreme Court.
    Mr. Edlow, I understand you don't agree with the Supreme 
Court's decision, but do you believe compliance with the 
Supreme Court is a choice?
    Mr. Edlow. Congresswoman, Supreme Court compliance is not a 
choice; however, the mandate did not enter into last week.
    Ms. Jayapal. Thank you, Mr. Edlow.
    Mr. Edlow, I didn't ask you anything other than whether you 
think that compliance is a choice, and you said, no, it's not a 
choice.
    Did you consult with DHS leadership or the White House on 
yesterday's memo?
    Mr. Edlow. I'm not going to get into internal conversations 
that I've got into about the memo.
    Ms. Jayapal. You're testifying before the Judiciary 
Committee, the Immigration Subcommittee. Did you consult with 
DHS leadership or the White House on yesterday's memo? I'm not 
asking you for details of it. I'm asking you if you consulted.
    Mr. Edlow. Congresswoman, the memo was not issued by me. I 
would defer to Acting Secretary Wolf.
    Ms. Jayapal. Did you consult or not? It seems a fairly 
simple question. It was not a gotcha question. Did you consult 
or not?
    Mr. Edlow. I've had conversations, but I've not consulted 
on the memo.
    Ms. Jayapal. Thank you. So, that would be a yes. So, then 
did USCIS not accept new DACA applications due to knowledge 
that this memorandum was to be issued?
    Mr. Edlow. Congresswoman, in conversations with my lawyers 
and with the Department of Justice following the Supreme Court, 
we were determining what the next steps were going to be. We 
immediately stopped rejecting new applications.
    We were holding them, so we had them ready to go should 
this decision have come out and the Acting Secretary--if the 
Acting Secretary had directed us to accept. We were aware that 
there was additional litigation, and we were taking the steps 
that we needed to.
    Ms. Jayapal. Thank you. I think that's sufficient.
    Let me switch gears to your website. Last week, over a 
month after the Supreme Court's ruling, 1 month after the 
Supreme Court's ruling, Department of Justice lawyers 
representing USCIS in a hearing admitted to inaccuracies 
regarding new DACA applications on the website. DOJ lawyers 
stated that USCIS had, quote, ``not found the time or resources 
to change their website to reflect the new status of DACA 
applications.'' Is that accurate?
    Mr. Edlow. I can't speak to the accuracy of that.
    Ms. Jayapal. You're the deputy director of the Agency, and 
you can't tell me whether what the DOJ said about your agency 
not having the time or resources to change their website is 
accurate?
    Mr. Edlow. Well, as far as having the resources, I just 
don't know--I need to consult with my IT people.
    Ms. Jayapal. You're the deputy director of the Agency and 
you can't tell me whether your agency had the resources in time 
to change the website.
    The following day, after the Supreme Court's decision, the 
website published a statement claiming that the decision had, 
quote, ``no basis in law,'' on your website. Then yesterday 
when the new DACA memo was issued, there was a banner on the 
website within minutes.
    Can you explain to me, Mr. Edlow, how there was plenty of, 
quote, ``time and resources to post a statement opposing the 
Supreme Court decision but not to update the website to comply 
with its order after more than 1 month''?
    Mr. Edlow. Again, Congresswoman, the order did not take 
effect until the mandate issued. We at that point were 
consulting with Department of Justice and with our attorneys--
    Ms. Jayapal. Mr. Edlow, the Supreme Court you do not get to 
decide whether you're going to comply with the Supreme Court 
order. You have had a month since the Supreme Court's decision 
to change your processing applications and make sure you comply 
with that order. You have not done that. It is your job to 
comply with the Supreme Court.
    This Administration does not get to decide which orders it 
complies with or not. It does not get to decide that it can put 
up a statement that says that the Supreme Court decision was--
that you don't agree with it, but you don't actually comply.
    There are an estimated 300,000 young people waiting for you 
to do your job and to allow new applications to this program. 
The Supreme Court rightly upheld this program. Your agency 
needs to do the same.
    Thank you, Madam Chair. I yield back.
    Ms. Lofgren. The gentlelady's time is expired.
    I would turn now to the Ranking Member, Mr. Buck.
    Mr. Buck. I thank the chair. I recognize the gentleman from 
Arizona, Mr. Biggs.
    Mr. Biggs. Thank you, Ranking Member Mr. Buck. I appreciate 
it--and Madam Chair.
    There has been some misconception here. The Supreme Court 
decision in the case of Department of Homeland Security v. 
Regents of University of California did not say that the DACA 
program was necessarily legal. What they said is that the 
Administration failed to comply with the APA in its decision to 
revoke or rescind their determination that the DACA program was 
instituted illegally. That is a completely different animal 
than what we've heard from our colleagues across the aisle so 
far today.
    The reality is they--and this gets to the point that you've 
been making, Mr. Edlow, about they made their decision. Their 
mandate wasn't effective until last week, and in reality, the 
Administration could pursue its course based on the decision of 
the U.S. Supreme Court to actually expand on their memo for the 
reasons why and providing rationale for why they chose to 
rescind the DACA program. Isn't that true, Mr. Edlow?
    Mr. Edlow. That is, yes.
    Mr. Biggs. In 2017, USCIS said there was 689,800 people 
still in DACA, in the DACA program. How many are there today, 
if you know?
    Mr. Edlow. Yeah, Congressman, it's approximately 826,000.
    Mr. Biggs. Okay. According to press reports, the Obama/
Biden Administration accepted documents such as Xbox Live 
receipts from DACA applicants as evidence to prove the 
requisite elements of DACA, such as physical presence. Do you 
agree that an Xbox Live receipt is subject to fraud and should 
not be used to prove DACA requirements?
    Mr. Edlow. I absolutely agree. I was appalled when I heard 
that was accepted as evidence of physical presence or anything 
else.
    Mr. Biggs. Are you familiar with a piece listing a series 
of folks, Ms. Yadel Alvarez-Chio, who was a DACA recipient who 
was smuggling illegal aliens into the country, Jose Yepez-Vega 
doing the same, Rafael Martinez Alvarez doing the same, 
Guadalupe Perez-Avila doing the same, are you aware of some of 
those cases? What happens to those people who are using their 
DACA status to violate U.S. law and are doing things such as 
smuggling illegal aliens into the country?
    Mr. Edlow. Yes. Thank you, Congressman. I can't say that 
I'm familiar with those specific examples, but in general, if 
we determine or if there is a determination made that the 
individual is using that status or is committing crimes and has 
been convicted, that case would obviously be referred to 
Homeland Security investigations for appropriate prosecution 
and then termination of the DACA program.
    Mr. Biggs. Do you know, Mr. Edlow, how many folks have been 
referred to DHS for investigation regarding crimes committed in 
the U.S.?
    Mr. Edlow. Congressman, we've put out several reports on 
that. I would need to get back to you on the exact figure.
    Mr. Biggs. If you would do that.
    Mr. Edlow. Absolutely, sir.
    Mr. Biggs. One of the things that you're here for today is 
obviously oversight, but in particular, is your concerns--I 
mean, the chairwoman mentioned the furloughs that are pending. 
Tell us about that and the finances to try to keep people from 
being furloughed so you can fulfill your duties and how long it 
will take to pay that money back?
    Mr. Edlow. Thank you, Congressman. Yeah, we are in a 
tremendous budget shortfall at this point. Prior to COVID, we 
were operating at a deficit. Frankly, we've been operating at a 
deficit for the last several years, but we were no way in a 
budget shortfall that was going to cut into our mission or 
potentially bring about furloughs.
    This was the result of COVID, and we have charts that I 
believe we provided to the Committee to show the significant 
dip in our receipts during this year, something that we're 
still trying to recover from.
    We have asked for approximately $570 million to finish out 
this fiscal year and $650 million or so to begin the next 
fiscal year. As I mentioned in my opening, since we are fee 
funded largely, we need carryover. We don't have surplus. We 
have carryover.
    So, when the reports came out the other day that if we 
didn't furlough employees, we would still have some degree of 
surplus to roll over into the next year, that's just not 
accurate. Surplus, by definition, is something that would be 
unobligated and likely have to be returned to the Treasury. In 
our case, it would be carryover that would be used for 
obligated funds and expenses. We need to make sure that we're 
able to address this in a way that I can take care of my--
    Ms. Lofgren. The gentleman's time is expired.
    We'll turn now to the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Madam Chair, for holding this most 
important hearing.
    Mr. Edlow, thank you very much for being here today.
    My district is home to the largest number of Dreamers in 
the country. I've got to tell you, they're scared. My daughter 
has a lot of friends that are Dreamers. They come to my house, 
and they ask, ``What can we do? We're scared.'' They have a 
good reason to be scared. They're essentially political 
pinatas.
    Obama created the program. Trump Administration created the 
program. United States Supreme Court said you didn't terminate 
the program correctly. Go back and do it again. Then just a few 
weeks ago President Trump said, I am going to provide Dreamers 
with a pathway to citizenship. We're waiting for language so we 
can Act on that piece of legislation.
    Then, yesterday, we have a new memo with new instructions. 
So, you can understand that these individuals, that, by 
definition, to be a DACA recipient, you have to follow the law, 
gainfully employed or be going to school. A lot of these 
Dreamers are our front liners in the fight against COVID. 
They're nurses, healthcare workers.
    You know what? They're also growing our crops and 
harvesting our crops and working at poultry plants. They're the 
folks that are keeping us fed while this country burns with 
COVID-19. We also have some that have made the ultimate 
sacrifice defending this country. We have soldiers that are 
fighting for this country. Yet, they're in limbo right now.
    So, I want to ask you, that memo, which was the latest 
twist and turn in the life of these individuals, almost a 
million, are you accepting new DACA applications?
    Mr. Edlow. Accepting new--no, we are not accepting new DACA 
applications.
    Mr. Correa. Are you accepting new advanced parole 
applications?
    Mr. Edlow. No, we are not, sir.
    Mr. Correa. By what authority?
    Mr. Edlow. Congressman, we've got a memo and the memo 
speaks for itself from Acting Secretary Wolf, and we will be 
putting out additional guidance. I will be putting out 
additional guidance in the coming days as to exactly how we are 
going to be responding to every type of application and request 
that comes in on that.
    Sir, if I can turn briefly to the limbo that you referred 
to and just change it slightly.
    Mr. Correa. Yes.
    Mr. Edlow. I understand where you're coming from, but I 
also want to address the fact that our employees are also in 
limbo. I know you have--we've spoken about this. You have a 
significant number of employees in your district who are also 
in limbo.
    Mr. Correa. Many employees in my district.
    Mr. Edlow. That is why I do want to make it as clear as 
possible that my primary goal here is to impress upon you the 
important work that my staff is doing, that our workforce is 
doing, and that I really need to make sure--
    Mr. Correa. Sir, I have limited time.
    Mr. Edlow. Yeah.
    Mr. Correa. Let me tell you right now, I know many of those 
workers that work for you, they're my constituents. I've told 
them we're trying to come up with a solution, and that's part 
of the message here today, which is how do we get back on track 
to make sure that you process those applications in a timely 
manner, which leads me to my next question, which is agency 
remote naturalization votes. How are we doing with that right 
now?
    Mr. Edlow. Remote naturalization is not something that we 
are presently considering and let me explain what's going on 
there.
    Mr. Correa. Please. You've got a minute and a half, so--
    Mr. Edlow. I'll try to be as brief as possible, sir. During 
the pandemic, when we had to cancel so many pending oath 
ceremonies, we were concerned about how we were going to get 
through that. Since we've reopened, we've been able to get 
through that entire backlog.
    Mr. Correa. So, do you believe you'll be moving in that 
direction? I sent you a letter Saturday--
    Mr. Edlow. No.
    Mr. Correa. --Democrats and Republicans urging you to move 
in that direction.
    Mr. Edlow. I understand, sir.
    Mr. Correa. Is your position you don't have the legal 
authority to do so?
    Mr. Edlow. I don't think we have the legal authority. I 
also am concerned about the operational implementation of it 
with regard to getting people their naturalization 
certificates, ensuring that people are in the--
    Mr. Correa. I've got 45 seconds.
    Mr. Edlow. Yeah.
    Mr. Correa. So, I'd like to work with you, Mr. Edlow, on 
figuring out the operational aspect of remote naturalization. 
I've got a memo here that I'm going to ask for unanimous 
consent to submit for the record that says you do have the 
legal authority. The HEROES Act has H.R. 6800--within it that 
essentially talks about clarifying and urging you to move ahead 
with remote naturalization.
    Ms. Lofgren. Without objection.
    [The information follows:]
    

                       MR. CORREA FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Edlow. Mr. Correa, as I said, I have concerns. As you 
know, I've worked with you before, I'm happy to work with you 
and work with your staff and discuss this more. The only thing 
that I do want to mention too, is we need to remember that only 
part of the naturalization ceremonies that we do are 
administrative. There's a large part of this country that has 
exclusive jurisdiction before the courts, and so I can't do 
anything as far as that's concerned.
    Ms. Lofgren. The gentleman's time is expired.
    Mr. Correa. I am out of time. I would like to conclude for 
2 seconds. I just want to say, Mr. Edlow, let's work on these 
issues. These are very important topics for new Americans--
    Ms. Lofgren. Mr. Correa, your time is expired.
    Mr. Correa. --for folks that are working hard to keep this 
country great. Thank you very much. I yield.
    Ms. Lofgren. Let's turn now to Mr. Buck.
    Mr. Buck. I thank the chair, and I want to thank Mr. Correa 
just briefly for his hard work on the TikTok bill and moving 
forward on that. It was a great demonstration of bipartisanship 
and I appreciate that.
    I would ask the chair to recognize Mr. Steube for his 
questioning.
    Ms. Lofgren. Well, Mr. Steube is recognized. Hello, Mr. 
Steube.
    Mr. Steube. Hey, Madam Chair. Thank you for this hearing. I 
yield to Mr. Buck.
    Mr. Buck. I thank the gentleman.
    Ms. Lofgren. He's just yielded to you, Mr. Steube.
    Mr. Steube. Yeah, I'm yielding back to him so he can yield 
to another member.
    Ms. Lofgren. Okay. Very fine.
    Mr. Buck. Thank you. We're playing a little ping-pong here. 
Mr. Steube is a great athlete, and I appreciate him yielding to 
me.
    Mr. Edlow, I wanted to ask you real briefly, you mentioned 
that the backlog and the need for additional funding is a 
result of the coronavirus issues that we are facing. Would you 
please expand on that?
    Mr. Edlow. Yes, certainly. First, Mr. Buck, just so you 
understand, I'm not saying that the backlog is a result of 
COVID. The backlog is something we've been dealing with for a 
number of years. It's the ebb and flow of receipts given 
programs coming in or things of that nature.
    The funding issue, yes, is a direct result. We have a chart 
that I believe we've provided to the Committee that shows at 
least during the--frankly, during this Administration, the dip 
in receipts in the end of February, March, and April of 2020 
was significant. It was a drop of several hundred thousand to 
the point where we could not--we went from a deficit that we 
could recover from to a deficit where there was no way to 
complete the fiscal year without additional funding.
    Mr. Buck. The total amount of additional funding, from what 
I heard the two numbers that you mentioned, somewhere in the 
$1.3 billion, $1.4 billion area?
    Mr. Edlow. $1.2 billion or so, yes.
    Mr. Buck. Okay, $1.2 billion. Are you aware that we are 
going to be considering a new bill for coronavirus relief that 
is coming over for the Senate, and it has $70 billion in that 
bill for K through 12 education? Are you aware of that?
    Mr. Edlow. I was aware that the bill existed. I have not 
looked at it beyond what was included for us.
    Mr. Buck. Okay. So, you're talking about $1.2 billion--
    Mr. Edlow. Yes.
    Mr. Buck. --for a Federal Government function, and Congress 
will be considering $70 billion for a local function, K through 
12 education.
    The CARES Act had $150 billion in it for State and local 
governments, again, not a Federal function that we're talking 
about, a constitutional Federal function, frankly, but a 
function that Congress has considered to help, absolutely 
appropriately, with State and local governments.
    One hundred seventy-five billion in the CARES Act for 
hospitals, $45 billion in the CARES Act for FEMA, State and 
local disaster relief. A total of $765 billion was appropriated 
by Congress to State and local governments for coronavirus 
relief, and you're asking for $1.2 billion. I think it's 
important that we put that in perspective.
    Congress spends billions of dollars, in my opinion 
wrongfully, but we spend billions of dollars all the time and 
you're asking for really a drop in the bucket that we should be 
appropriating to make sure that we are doing our job as a 
Federal Government and one of the core functions of the Federal 
Government.
    To hear the politics that's being played right now is just 
unfortunate because much of the shortfall that you're facing is 
a direct result of the coronavirus that has affected so many 
and infected so many.
    I appreciate you coming before Congress, and I appreciate 
your honesty, your integrity, and the fact that I know you. We 
work together, and I know you wouldn't waste a single dime of 
taxpayer money.
    So, for you to come and ask for $1.2 billion, I'm sure that 
it is necessary and that it is going to be spent wisely and 
compassionately to make sure that people that are in limbo are 
treated appropriately and that we are able to process those 
folks and welcome them to our country.
    So, I thank you, and I yield back.
    Ms. Lofgren. The gentleman yields back.
    Congresswoman Garcia had to attend a competing hearing in 
the Armed Services Committee. Hopefully, she will be able to 
return, but until then, Mr. Neguse will be recognized for 5 
minutes.
    Mr. Neguse. Thank you, Madam Chair, for holding this 
hearing.
    Of course, thank you, Mr. Edlow, for your testimony.
    I want to address the current State of the processing 
backlog, which my colleague from Colorado, Representative Buck, 
referenced. I think, as I'm sure you are aware and my 
colleagues would agree, one of the biggest complaints that we 
receive from constituents on immigration relates to processing 
delays at USCIS.
    Can you briefly explain why the case backlog has continued 
to grow? My understanding is overall receipts have decreased 
for 2 consecutive years and staffing has increased so 
significantly, really over the past 5 years. My understanding 
is that it's about 3,000 people who have been added to your 
payroll since 2016. So, what accounts for the backlog?
    Mr. Edlow. Well, sir, receipts have declined, but they've 
also increased in other years, in 2017 and 2018, and trying to 
move to be able to complete these cases. We're not at a point 
yet where we are completing more cases than we're receiving in. 
That's unfortunately something that we are trying to deal with 
at this point.
    We're also dealing with certain things, for example, on the 
asylum backlog we have about 390,000 cases that are pending. 
Our asylum folks, the directorate has done an amazing job, 
especially during the pandemic of pre-adjudicating these cases 
to get them ready to a position where they can move forward and 
try to drill down on some of that backlog.
    We have to recognize that there are other things that 
happened during that period of time too or prior. For example, 
spending--putting a lot of our officers dealing with credible 
fear cases along the southern border, that has pulled away from 
our ability to handle some of the backlog in the affirmative 
asylum cases.
    The same thing is true--we're prioritizing and we are 
trying to do what we can on the backlog with our field 
operations directorate and our service centers, and I think we 
are making progress. You are correct: We've hired more people. 
We've invested in technology. I think the e-processing is 
certainly--
    Mr. Neguse. Mr. Edlow, just because my time is limited, I 
would say, I want to say, first, thank you for your candor 
because I do think with respect to one of the issues that you 
mentioned, clearly, to the extent that, again, I understand the 
data might mean different things to different people, but as I 
understand the data shows that the processing times on average 
in the aggregate--excuse me, that the applications rather in 
the aggregate over the course of the last 4 years have, in 
fact, gone down.
    So, as you said, to the extent there are competing 
priorities, to the extent this Administration has made 
decisions to reallocate resources within your agency to other 
purposes, which in turn implicates the processing times at 
USCIS, that is, in fact, one of the main reasons why that 
backlog persists. Nonetheless, I appreciate your answers in 
that regard.
    I, of course, concur with my colleague from Colorado and 
with Representative Correa. Obviously, we all recognize the 
budget crisis that USCIS faces, and we all, I think, here in 
the Congress are eager to assist and want to do what we can to 
provide the Agency with the necessary stabilization resources 
that would be needed so that the hard workers at USCIS back in 
Colorado and elsewhere across the country can continue to do 
their jobs.
    I do want to ask you, and I recognize this might be a 
sensitive line of inquiry, my understanding from my colleagues 
on the House Appropriations Committee is that the 
Administration has yet to submit a formal request for emergency 
funding. While I'm aware that OMB has sent a letter supporting 
your request, a lack of White House involvement is, at least in 
my view, is apparent.
    So, I am wondering if you've spoken or communicated with 
senior White House or senior DHS officials about the budget 
crisis and about this request for funds. Have you communicated 
with them about the need for the White House for Mr. 
Cuccinelli, for others to tell Congress that they support this 
request so that we can ultimately build the political consensus 
here on Capitol Hill to get it done?
    Mr. Edlow. Yes, Congressman, you're correct. Mr. Vought 
from OMB did send a very strongly worded support letter to the 
appropriators. Additionally, Acting Secretary Wolf has sent a 
letter on our behalf and Acting Deputy Secretary Cuccinelli has 
made numerous phone calls to Members in both the House and the 
Senate about our issue.
    So, this is something that's a whole-of-government approach 
to try to address, and I've had conversations with people in 
the White House, with OMB. They are strongly supportive of 
this.
    As far as their determination or their decision that no 
active--no formal, as they're calling, quote, ``formal request 
has been sent, I would defer you to OMB on that'' unquote. 
There's no lack of support for this request from the White 
House, from OMB, or from the Department.
    Ms. Lofgren. The gentleman's time is expired.
    I think, if I may intervene, it would be helpful to get a 
formal request. I mean, we're not doubting your support, but 
there's some processes.
    I will turn now to the gentlelady from Florida, Ms. 
Mucarsel-Powell, for 5 minutes.
    You need to unmute your microphone and start, again. You're 
muted, Debbie. There. Thank you.
    Ms. Mucarsel-Powell. Thank you. Can you hear me now?
    Ms. Lofgren. Yes, we can.
    Ms. Mucarsel-Powell. Thank you.
    It's not the first time that we've had a hearing with USCIS 
and backlogs. I represent an area where I have thousands of 
constituents that have immigrated here to the United States and 
we get calls every single day about immigration status, to help 
with a variety of things. About 70 percent of the calls that 
we're receiving are immigration related, Mr. Edlow.
    What I hear every single day, when I check those logs of 
calls, it's that the USCIS agency has terrible backlog so we 
all know this. We are actually assisting right now a professor 
that is working in my district. She's been waiting for 3 years 
for USCIS to reach a decision on her request for an adjustment 
of status, and her case has been bungled from the start.
    She's provided additional documentation, met all the 
demands that USCIS has made, and she's still waiting. So, like 
that, I have hundreds of cases in my office. As you can 
imagine, the backlogs affect immigrants who are actually trying 
to follow the law. They want to go through all the proper 
processes, but it's affecting families in my district.
    Actually, when immigrant employees can't get their 
employment authorization processed in time, it also affects 
small businesses in my district. You can ask anyone here in 
South Florida, businesses are very concerned about the issue 
that immigration faces.
    So, this backlog has continued to grow and I don't 
understand--Mr. Neguse really touched on it. We have continued 
to see an increase on staff that has been brought on by the 
USCIS, but the backlog doesn't decrease. Now, you're hear 
asking for more funding.
    I know that there's a significant problem with USCIS with 
the funding issues. I also know that you're furloughing many 
employees. I actually have met one employee that told me just 
this week that she received a notice from one day to the next 
that she's going to be furloughed as of August 30 without any 
sort of back pay or any benefit, and she had to scramble to 
look for a job.
    So, let me just say that in my district, I have a Kendall 
office, and people may lose their jobs, so I'm very concerned 
not only about the immigration community in South Florida, but 
also of the workers in the Kendall office that may lose their 
jobs.
    So, if at 13,000, Mr. Edlow, if the 13,000 USCIS employees 
were furloughed for any significant period of time, let's say, 
30 days, how would that impact the case backlog?
    Mr. Edlow. Well, Congresswoman, first, you're right that we 
are getting a lot of inquiries when it comes to case status and 
having to deal with people on the backlog. Fiscal year to date, 
we've received over 118,000 congressional inquiries on largely 
on that point and other people questioning status of various 
things. We are--I believe, we've handled about 94 percent of 
those thus far.
    In terms of the individual person that you're referring to, 
if you want to have your staff submit something or get my chief 
of legislative affairs some information, I'd be happy to look 
into that and give you a call as to what's going on, but 
obviously I don't know the case at hand.
    Congresswoman, I'm just as concerned about the staff in 
Kendall and everywhere else in Florida and everywhere else in 
the country by what would happen.
    Ms. Mucarsel-Powell. Let me stop you there, Mr. Edlow, just 
because of time. Let me just say, again, before COVID, before 
this health crisis and economic crisis that we're facing, we 
had a hearing, and the issue is the same and I don't see any 
improvement.
    Let me talk about another program, the Cuban Reunification 
Program. Now, you earlier stated that you get your funding 
through application fees. Is that correct?
    Mr. Edlow. Largely, 97 percent, yes.
    Ms. Mucarsel-Powell. Let me just say that I introduced a 
bill recently, actually, last year to immediately restart the 
processing of applications of that program to reunify these 
families. They've been applying for years. They've paid all 
their fees. Some families that really can't make ends meet, 
they actually had to pay over a thousand dollars in fees, and 
this 2 or 3 years ago, before the Trump Administration stopped 
the program from one day to the next, what is happening with 
the Cuban Reunification Parole Program, which was started under 
a Republican President, President George Bush?
    I have so many constituents. Every day they're sending me 
messages. They've applied. They've gone through the process. 
They have paid their fees. You have their money, Mr. Edlow, 
what is happening to that program?
    Mr. Edlow. Congresswoman, I would be happy to get back to 
you on that exact program and provide you and your staff a 
briefing on that.
    Ms. Mucarsel-Powell. I've requested information for months. 
I still have yet to receive an answer to this. Now, again, 
there are families, there are mothers that have not been able 
to see their children. They have--
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Mucarsel-Powell. If you can give me information. Thank 
you, Madam Chair.
    Ms. Lofgren. Let's make sure that not only the gentlelady 
from Florida, but the entire Committee be briefed on this as 
soon as possible.
    Mr. Edlow. Yes, ma'am.
    Ms. Lofgren. I understand that the gentlelady from Texas, 
Ms. Escobar, has had to join Congresswoman Garcia in the Armed 
Services Committee hearing. It's a very important hearing on 
the murder of Vanessa Guillen, and so I will now recognize the 
gentlelady from Texas, Ms. Jackson Lee, for her 5 minutes.
    Ms. Jackson Lee. Thank you, Madam Chair.
    I will shortly be joining my colleagues in the Armed 
Services Committee for the hearing on Vanessa Guillen, who was 
brutally murdered on the grounds or as a United States military 
person in the United States Army, what a very tragic and 
heinous circumstances.
    Let me, Mr. Edlow, indicate that we are well aware of the 
plight that the Agency is in, USCIS, because of the decrease in 
fees and the request or the need for about 1.5, $1.2 billion.
    I did not hear your answer. Did you say that you had made 
the request for emergency funds?
    Mr. Edlow. Congresswoman, we made a request--we worked with 
the department, as well as OMB, and we were the ones authorized 
to bring that to the Appropriations Committees, and I've made 
that clear to the authorizers as well.
    A support letter was sent from OMB and letters have been 
sent from Acting Secretary Wolf and calls have been made by 
Acting Deputy Secretary Cuccinelli.
    Ms. Jackson Lee. Well, let me just say, Members want to be 
responsive to this system of immigration that has been the 
cornerstone of the growth and unique experiment of the United 
States, but we have some grave concerns.
    So, let me publicly say, and I'll ask, I denounce and find 
abhorrent and outrageous the response of the Administration on 
DACA.
    DACA is part of the infrastructure of my district. I have 
had DACA employees, DACA interns. I've invited a DACA, Mr. 
Cesar Espinoza, a student to the State of the Union and I am 
confused about, one, the order that says that new applications 
will be rejected and that it will be a 1-year turnaround or a 
1-year application process.
    Would you give me very briefly the thinking of any sense of 
humanity for a 1-year status and having to reapply, again? How 
does that make sense?
    Mr. Edlow. Congresswoman, I would refer you to the memo 
which lays out Mr. Wolf's rationale for that. I was not part of 
that decision.
    Ms. Jackson Lee. Why don't you briefly characterize it 
since I'm sure you've read the memo?
    Mr. Edlow. I have. As Mr. Wolf has said, we are in the 
process now--and this is what the memo says--of reviewing the 
DACA program to determine what next steps are appropriate. 
During that period of time, it makes more sense to have people 
realize that this is now a 1-year renewable status.
    Ms. Jackson Lee. So, convey to Mr. Wolf the complete, 
absolute condemnation of the majority at this time in the House 
of Representatives and to acknowledge that it is insensitive 
and inhumane.
    I think my colleagues have already made the record of the 
widespread service that DACA status persons are from the United 
States military to first responders, to COVID-19 hospital 
personnel, and that it is tragic that a Nation that was built 
on the hard work of immigrants and certainly those of my 
descendants, enslaved Africans, would do a dastardly deed like 
this.
    Let me move to the idea of people who are waiting in line, 
and I would ask and join my colleague from California, Mr. 
Correa, about remote naturalization and how can we help move 
that forward. That would help with the fees. As you well know, 
there's an enormous backlog.
    I've been on this Committee now for 25 years, with 
consistency, the Subcommittee on Immigration. How can we help 
have you deliberate and think on the idea of remote 
naturalization and also the processing of individuals seeking 
legal status, such as green cards and others?
    How can we work to get that done?
    Mr. Edlow. I look forward to working with this Committee to 
address that. As I said, I believe there's some legal 
impediments right now to the remote naturalization. I would say 
there are increasing receipts when it comes to naturalization 
and, ma'am, I do want to make it known that, during this 
Administration, on average, we have seen record highs of 
naturalizations, which includes about 20,000 on average more 
naturalizations per year than in the previous Administration.
    We are working very, very hard to prioritize 
naturalizations and do what we can on that front.
    Ms. Jackson Lee. Well, I don't know how that could be the 
case when you do have a budget deficit and there is so many 
people in our respective districts that have not been able to 
be naturalized, and so I commend you to doing the right thing 
and deeply digging into the remote naturalization and we will 
address the numbers.
    Ms. Lofgren. The gentlelady's time is expired.
    Mr. Edlow. If I could maybe respond to that briefly.
    Ms. Jackson Lee. The gentleman wanted to respond.
    Ms. Lofgren. Very briefly. The gentlelady's time has 
expired.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Mr. Edlow. If I may just briefly respond. As far as the 
receipts, we do have a lot of pending naturalization cases, but 
those receipts have already come through, so we've already used 
that to adjudicate cases that are now past.
    Ms. Lofgren. Thank you.
    Mr. Edlow. As far as the naturalization efforts that are 
pending right now, as I said, anyone who is going to be oathed 
but was stopped because of COVID has now been oathed.
    It's just now a matter of getting back into the interviews. 
We are taking very creative measures to try to get people 
interviewed as quickly as possible and move that forward, but 
this is something that's going to take some time, but we are 
working on that.
    Ms. Lofgren. Thanks, Mr. Edlow.
    Mr. Edlow. Thank you.
    Ms. Lofgren. Before calling on Ms. Scanlon, I would like to 
remind Members who are physically present that there is a 
requirement to wear a mask and that mask should cover both your 
nose and your face. If you are unable to do that, we would ask 
Members to leave the physical space and participate remotely, 
noting that our colleague, Mr. Gohmert, has just announced that 
he has tested positive for COVID and he was a member who was 
unwilling to consistently wear a mask.
    It's a reminder that this is very serious and if you're 
unwilling to wear a mask that covers both your nose and your 
mouth, please do leave the room and we will arrange for you to 
participate remotely.
    At this point, I would like to recognize Ms. Scanlon for 
her 5 minutes.
    Ms. Scanlon. Thank you very much, Chair Lofgren.
    I also have been getting a lot of calls about 
naturalization in my district. I represent the Philadelphia 
region and I think 10 percent of my constituents are foreign-
born, so a lot of family Members, et cetera, who are anxious 
about that.
    We've talked this morning a lot about remote 
naturalization, but what about socially distanced 
naturalization? We've seen in other regions of the country 
there have been drive-thru, there's been the use of high school 
stadiums, things like that.
    Is the Agency doing anything to meet these practical issues 
in this time?
    Mr. Edlow. Yes, Ms. Scanlon. As you see, we are doing 
drive-thru naturalizations--
    Ms. Scanlon. Well, not in my region.
    Mr. Edlow. Well, in your region, I will tell you, I was 
there last week where I naturalized in a socially distant 
ceremony. I naturalized the last group of pending oath cases 
that had been rescheduled from during COVID.
    So, Philadelphia is completely up to date right now on 
naturalizations. Now, I'm not suggesting that we've gotten 
through all the interviews that we've had to cancel because of 
COVID. We are still working through that, and a lot of that 
has, unfortunately, been the result of needing to make sure 
that we have the appropriate barriers in place and that we can 
do the socially distanced processing and interviewing in these 
facilities.
    So, getting these facilities ready to be safe for our 
workforce, as well as the public, was something that took some 
time, but we're naturalizing people outside. We're doing it in 
a way that keeps people 6 feet apart.
    The staff, what I witnessed, was one group going out before 
I was going to go into naturalized, I watched my staff work so 
tirelessly to quickly sanitize that whole room so that we could 
have the next group moving forward.
    I was in Virginia a couple weeks ago to do a 
naturalization--
    Ms. Scanlon. Maybe we can pursue this offline because I've 
only got a couple minutes, but I appreciate hearing that 
because my office has been reaching out and we hadn't been able 
to get that information.
    Mr. Edlow. Yeah, I'm happy to continue working with you on 
that.
    Ms. Scanlon. So, we would love to attend a social distant 
naturalization ceremony.
    Mr. Edlow. I would love to have you. I will go with you in 
Philadelphia. If you want to go to Virginia or Baltimore, 
whatever you'd like.
    Ms. Scanlon. Philly would be best.
    Mr. Edlow. All right. We'll do that.
    Ms. Scanlon. Okay. This is only my second hearing of this 
sort. Last year I was here because it's my first full term in 
Congress and last year we heard about the backlogs and the 
funding challenges, but the very same day that we had that 
hearing last year, we learned that CIS officers were being 
transferred to temporary duty at ICE or they were being asked 
to volunteer for that.
    Since then, your CIS has transferred millions to ICE to 
hire agents and in your new proposed fee increases, again, 
there's a proposal to annually transfer money from CIS to ICE.
    So, I'm a little confused about how come--you're telling us 
that we need to--that CIS relies upon carryover funding at the 
same time that that funding is being transferred to an 
enforcement agency which has a separate mission.
    Mr. Edlow. Understood. As far as the individuals that went 
over a few years ago, there was some admin support staff that 
went over to help some admin support staff at a sister agency.
    Ms. Scanlon. Right, but this at the same time that 
representatives from your agency were coming in and telling us 
that you didn't have enough staff.
    Mr. Edlow. They were not the adjudicators. They were not 
the ones moving the cases. That said, my understanding is that 
there has not been a single dollar transferred from USCIS to 
ICE in, at least, the last two fiscal years, if not before 
that, too.
    So, we can confirm and get back to you on that, but I do 
not believe any money has been transferred to ICE for the 
hiring of any agents or for any other purposes.
    Ms. Scanlon. Okay. My understanding was that the new 
proposed fee increases included some transfers, but if you can 
check on that.
    Mr. Edlow. I think there was something in the notice of 
proposed rulemaking on that. I do not believe that's in the 
final rule, but, again, we'll get back to you on that.
    Ms. Scanlon. Okay. Thank you.
    In December of 2019, Congress passed the Liberian Refugee 
Immigration Fairness Act as part of the NDAA to create a 
roadmap for citizenship for Liberians who had been here for a 
certain amount of time. I think there's about 10,000 Liberians 
who are eligible.
    There was only a 1-year window for implementation of that, 
and it took months after December of 2019 for CIS to issue 
guidance and then, of course, we landed in the middle of this 
pandemic.
    So, we're running out of time. Are you familiar with that 
program, and do you have any ideas on how we can get through 
the backlog? Apparently, not a single application for that 
program has been processed yet.
    Mr. Edlow. I am absolutely familiar with the program, and I 
remember when guidance was issued on that after the bill 
passage. I will need to get back to you as to what's going on 
with the status of those individuals who have applied.
    Ms. Scanlon. I'd appreciate it because we have a very 
vibrant--one of the larger Liberian communities in my region. 
With that, I'd ask unanimous consent to introduce a statement 
from HIAS and Council Immigration Agency on why we need to 
extend the deadline for Liberian citizenship given the 
extraordinary barriers that have arisen this year.
    With that, I yield back.
    Thank you.
    [The information follows:]    

                       MS. SCANLON FOR THE RECORD

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. The gentlelady yields back.
    I would note that no other Members are present at this 
point, so we will conclude this first panel. I would note, Mr. 
Edlow, that we will keep the record open for 5 days.
    Members will have 5 legislative days to submit additional 
written questions for witnesses or additional material for the 
record, and we would ask that you respond to those questions 
promptly should that occur.
    At this point, I'm going to ask that we have a brief recess 
so that we can transition to the second panel. I would like to 
remind Members, once again, of the requirement to have a mask 
that covers both your nose and mouth. If you're unable to do 
that, we will ask that you leave the hearing.
    With that, we are in recess for about 5 minutes.
    [Recess.]
    Ms. Lofgren. So, if Members can reconvene, I believe that 
we are ready for our next panel, and I would like to introduce 
them.
    First, I want to introduce Sharvari Dalal-Dheini. I think 
I've mangled your name--I have apologies--who is the director 
of government relations for the American Immigration Lawyers 
Association where she directs the association's administrative 
and congressional advocacy efforts with a focus on illegal 
immigration system.
    She has been cited in numerous national media stories and 
recently authored an article for Think Immigration on the USCIS 
budget short falls.
    Prior to joining AILA in May of 2019, Ms. Dalal-Dheini 
served for 11 years as counsel with the USCIS office of the 
chief counsel.
    Michael Knowles is the President of the American Federation 
of Government Employees, Local 1924 AFL-CIO. Local 1924 
represents over 2,500 USCIS employees in the national capital 
region.
    Mr. Knowles also serves as special representative for 
humanitarian affairs for the AFGE National Citizenship and 
Immigration Services Council 119, which represents 14,500 USCIS 
employees worldwide.
    Mr. Knowles has worked in the fields of human rights and 
refugee protection since the end of the Vietnam war and as 
served as an asylum officer with the USCIS Arlington asylum 
office since 1992.
    Doug Rand is a senior fellow and director of the Technology 
and Innovation Initiative at the Federation of American 
Scientists, focusing on the intersection of immigration policy 
and artificial intelligence.
    He's also the cofounder of Boundless, a technology company 
that assists individuals in navigating the immigration system.
    Prior to this, Mr. Rand served for 6 years under the Obama 
Administration as assistant director for entrepreneurship in 
the Office of Science and Technology policy.
    Finally, Jessica Vaughan, has worked with the Center for 
Immigration Studies since 1992 and currently serves as director 
of policy studies.
    Ms. Vaughan is also an adjunct instructor for senior law 
enforcement officers at the Northwestern University Center for 
Public Safety in Illinois.
    Prior to her work with the Center for Immigration Studies, 
Ms. Vaughan was a foreign service officer with the U.S. 
Department of State where she served in Belgium, Trinidad, and 
Tobago.
    We welcome all of our distinguished witnesses on this 
second panel, and we thank them for participating in today's 
hearing. Now, if you would all please rise, I will begin by 
swearing you in.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Ms. Vaughan, you are not unmuted.
    Ms. Vaughn. Thank you. I do.
    Ms. Lofgren. Okay. The record will reflect that each one of 
the witnesses answered in the affirmative.
    Please note that each of your written statements will be 
entered into the record in its entirety, and accordingly, I ask 
that you summarize your testimony in 5 minutes.
    To help you stay within that time, for those witnesses 
testifying in person, there's a timing light on the table. When 
the light switches from green to yellow, you have 1 minute to 
conclude your testimony. When the light turns red, it signals 
your 5 minutes have expired.
    For those who are testifying remotely, there's a timer on 
your screen to help you keep track of time.
    So, let's hear from our first witness, Ms. Dalal-Dheini and 
you're going to help me on how to pronounce your name. Please 
unmute and begin.
    Ms. Dalal-Dheini. You can call me Shev, but my last name's 
Dalal-Dheini.
    Ms. Lofgren. That would be so helpful, thank you.

               TESTIMONY OF SHARVARI DALAL-DHEINI

    Ms. Dalal-Dheini. Good morning, Chair Lofgren and Members 
of the subcommittee. Thank you for the opportunity to speak 
with you today about the need for oversight, accountability, 
and transparency into the U.S. Citizenship and Immigration 
Services, especially in the light--in light of the possible 
furloughs of more than 13,000 of its employees due to an 
alleged budget shortfall.
    I serve as--I am honored to be here on behalf of the 
American Immigration Lawyers Association, a bar association of 
more than 15,000 immigration attorneys and law professors. I am 
here on behalf of our Members and the countless families, 
vulnerable individuals, students, and businesses they regularly 
represent in front of USCIS who will suffer tremendous harm if 
the U.S. immigration system comes to a halt.
    Even more so, I am honored to be here as someone who worked 
for over a decade with the dedicated civil servants at USCIS 
whose livelihoods are now in jeopardy. Having spent the 
majority of my career at USCIS, I am someone who strongly 
believes in the mission of the Agency and deeply care for the 
people who work there.
    I am also someone who can clearly see when the Agency has 
strayed from its statutory mission of focusing exclusively on 
the Administration of benefit applications and has transformed 
into a vetting agency more focused on stopping legal 
immigration.
    I was hired by USCIS in 2008 because of congressional 
appropriations it received to help eliminate backlogs. We are 
here today because, once again, USCIS is asking for a bailout 
and processing times have skyrocketed, but this time there's no 
operational plan attached to reduce backlogs, just one to make 
their customers pay for it.
    USCIS claims that its financial woes are result of the 
coronavirus; however, USCIS' problems existed well before the 
pandemic caused by years of fiscal mismanagement as well as the 
Agency's implementation of many policies that negatively 
impacted its own revenue. Throughout most of my career at 
USCIS, any time a new policy was being discussed, there was a 
concerted effort to consider the operational impact it would 
have and to keep backlogs in check.
    Things changed in 2017 when a new group of political 
leadership took rein. As new policy measures were being 
discussed, it was made explicit that operational, legal, and 
financial concerns didn't matter. This isn't inside 
information. This approach is clearly written into USCIS' 
recent policies that form an invisible wall to immigration.
    USCIS has decreased efficiency, increased the cost of 
adjudications, slowed case processing, and discouraged people 
from applying for benefits. Many of these policies are detailed 
in my written testimony, but today I highlight one particularly 
egregious example.
    In 2019, USCIS instituted a policy to reject applications 
that leave any spaces blank, even if not material. This has 
resulted in outrageous rejections. For example, a young child's 
asylum application was rejected for failure to write N/A for 
the dates of employment, even though, the application was 
clearly marked that there was no employment history.
    Similarly, multiple cases were rejected because the answer 
written was none, not applicable, or NA, instead of N/A despite 
the form instructing that it was okay to do so.
    This blank space policy unnecessarily adds multiple layers 
of review and cost by requiring review of the entire 
application in the first instance, mailing back the application 
at the government's cost, and reviewing the application, once 
again, upon resubmission.
    There is no evidence that it helps detect fraud or weed out 
frivolous applications. All that USCIS has accomplished with 
this, and the many other policies is to deter lawful 
immigration and put its own workers at risk of losing their 
jobs. USCIS cannot furlough more than 13,000 U.S. workers. 
These are real people with real financial and family 
responsibilities. They are not pawns.
    If they can't work, there will be devastating economic and 
social impacts on American families, businesses, and students. 
USCIS' request provides Congress the opportunity to exercise 
its oversight authority.
    Congress must condition any funding on increased 
transparency, accountability, and efficiency so that the Agency 
can pull itself out of this crisis by its own bootstraps.
    AILA urges Congress to take the following steps: One, 
reject USCIS' proposal to pass off its own efficiencies by 
imposing a 10 percent surcharge to its customers.
    Two, impose stringent reporting requirements to hold USCIS 
accountable such as those included in the bipartisan Case 
Backlog and Transparency Act of 2020.
    Three, require USCIS to implement cost-efficient measures 
for adjudicating applications and petitions, including 
reforming and rescinding policies set forth in--
    Ms. Lofgren. Ms. Dalal-Dheini, your time has expired so 
we'd ask that you wrap up, please.
    Ms. Dalal-Dheini. Yep. Almost done. Verify whether 
emergency appropriations and furloughs are even necessary.
    The Agency bears a responsibility for correcting its 
systemic problem and Congress must hold it accountable. Thank 
you, and I am happy to answer any questions.
    [The statement of Ms. Dalal-Dheini follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much.
    We will now turn to Mr. Knowles for his 5 minutes of 
testimony.

                  TESTIMONY OF MICHAEL KNOWLES

    Mr. Knowles. Thank you, Chair Lofgren and Ranking Member 
Buck, and other Members of the committee. It's a great honor 
for me to be here, and hope you know how much it means to the 
workforce to have one of their own here.
    I wanted to recognize Mr. Edlow for his compliments to our 
professionalism and our dedication, and to all your Committee 
for your hard work supporting us so that we can do the work of 
the American people.
    My main message today is keeping us at work. Don't send us 
home. I'm a little concerned that some of the dialogue today 
seems to not recognize the urgency of this situation. The 
plight of 13,000 Federal employees is not merely their own 
plight, but the entire immigration system of the United States 
is hanging in the balance, and it would be a great tragedy if a 
furlough were to be allowed to go forward because the various 
parties on the Hill and the Administration can't seem to agree 
on what needs to be done and when.
    For folks who are viewing on television might not 
understand the word furlough. It's not a vacation. It's a 
layoff. It's actually people being without work, having their 
benefits disrupted, and it could become a permanent separation 
from duty if measures are not taken to restore our operations.
    I liken the word ``furlough'' to a free fall. A free fall, 
if you would imagine, somebody jumping out of a plane and not 
being sure when or if their parachute is going to open.
    Our employees are deeply, deeply concerned. Their 
confidence is deeply shaken. Their confidence in the leadership 
of the Administration is shaken, and, frankly, their confidence 
in the Hill is shaken because they're just not quite sure 
people value their work and the importance of their work to our 
country enough to Act swiftly and so we're here today to 
implore everyone concerned.
    Red, blue, left, right, center, Administration, Congress, 
please Act now. We're well aware of the concerns that many have 
about the crises facing our country, the pandemic, the crisis 
of immigration.
    Our agency's certainly broken and needs to be fixed. Many 
of us have been calling for years for comprehensive immigration 
reform, but these things cannot reasonably be expected to be 
fixed in 30 days.
    So, our union does not wish it to be seen that we're coming 
here asking for a blank check for our boss. We're asking that 
you keep us at work and that you work diligently with our 
Administration and with each other to create an action agenda 
that will incorporate accountability, guard rails, and other 
things that are very necessary to get immigration services back 
on the right path.
    I think the views of our union are well-known to the 
Committee and to the public. We have been very outspoken in the 
last 3 years about some of the horrible and harmful policies of 
the Administration, particularly in the area of humanitarian 
affairs, refugees, and asylum. Their protection is at risk and 
our country's compliance with their obligations to protect the 
persecuted leave much to be desired.
    So, all of these things we continue to speak loud and 
clear. We will continue to do so. We have filed numerous Amicus 
briefs. We recently filed substantive comments opposing the new 
asylum regulations. We intend to continue to do so.
    The most urgent thing I must ask is, please, let us stay at 
work and, please, Congress, do your work and get us the funding 
that we need, and agency--we ask the Agency to, please, do the 
right thing. Use the money for what it's been allocated for.
    We certainly oppose the reprogramming of any funds for any 
other purpose than immigration services.
    Ms. Lofgren. Mr. Knowles, your time is expired. We'd ask 
you to wrap up, please.
    Mr. Knowles. Right. I would just say to reiterate that the 
failure of the immigration service would be devastating to the 
entire country.
    Our economy, our health system, our humanitarian programs, 
our educational systems, our agriculture, all of it's at risk, 
so let's stay on the job and get the job done.
    Thank you for listening to me.
    [The statement of Mr. Knowles follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much.
    We will now hear from Mr. Rand.
    Mr. Rand you are recognized for 5 minutes.

                     TESTIMONY OF DOUG RAND

    Mr. Rand. Chair Lofgren, Vice-Chair Jayapal, Ranking Member 
Buck, and Members of the Subcommittee on Immigration and 
Citizenship, it is an honor to appear before you today to 
address the oversight of U.S. Citizenship and Immigration 
Services.
    My name is Doug Rand, and I'm providing this testimony in 
my personal capacity. Today I wish to emphasize that USCIS is 
simultaneously suffering from three crises:
    First, a mismanagement crisis that is the fundamental cause 
of the Agency's demand for a bailout from Congress.
    Second, an accountability crisis that this Congress must 
remedy.
    Third, a naturalization crisis that could disenfranchise 
over 300,000 future Americans by this November.
    In mid-May of 2020, USCIS suddenly announced that without a 
$1.2 billion bailout from Congress, it would soon need to 
furlough over 13,000 of its employees because of projected 
revenue shortfalls resulting from COVID-19. It is clear, 
however, that the Agency's financial troubles are, in fact, due 
to mismanagement and deliberate policy choices that long pre-
date the pandemic.
    Let's rewind the clock to the end of 2016. The Obama 
Administration had just increased USCIS user fees to put the 
Agency on a firm financial footing for years to come.
    Over the next 3 years, annual agency revenue shot up by 
over $700 million, even as the annual number of cases dropped 
by 5 percent, but apparently all this extra money wasn't enough 
for the Trump Administration.
    Even though, USCIS had an $800 million carryover balance at 
the end of Fiscal Year 2018, last November the Agency warned 
that it would be over $1.5 billion in the hole by the end of 
Fiscal Year 2020. In other words, 1 month before the novel 
coronavirus causing COVID-19 was even discovered, USCIS was 
already projecting that a massive cash crunch would occur right 
around now.
    That's because USCIS knew well before the pandemic that it 
was jacking up expenses even faster than revenues, especially 
payroll expenses.
    Since 2017, USCIS has increased its head count by nearly 20 
percent. Why? First, USCIS is declared an ambition to more than 
double the size of its fraud detection and national security 
directorate with nearly a thousand additional hires, even in 
the absence of any publicly disclosed evidence of the need for 
such a surge.
    Second, USCIS has created massive new red tape requiring 
more staff to complete fewer cases. The Agency's internal cost 
to process just five of its most common forms has shot up by 
over $500 million per year.
    This is the inevitable consequence of a flurry of 
unnecessary policies. Three of the most consequential are: The 
imposition of mandatory interviews for hundreds of thousands of 
green card applicants, the elimination of the H-1B prior 
deference policy, and the public charge rule, an unlawful 
wealth test that has made green card adjudications vastly more 
complex and time consuming for no legitimate reason.
    On to the accountability crisis. For nearly two decades, 
USCIS has been relatively under scrutinized by appropriations 
and oversight committees in Congress because it always had some 
service of funding.
    Take the new USCIS fee rule, which seeks to eliminate fee 
waivers for low-income naturalization applicants and transfer 
some hundred million dollars of USCIS user fees to ICE despite 
multiple directives from Congress not to do so.
    I've read the hundreds of pages in this proposed fee rule, 
and you can take my word for it, nowhere does USCIS adequately 
explain why it needed $1.3 billion of extra revenue each and 
every year even in advance of the COVID-19 pandemic.
    As a condition of any bailout, USCIS must be fully 
transparent with all its financial and operational data and 
submit to a thorough independent audit so that the public and 
this Congress can understand precisely how this insolvency 
debacle happened and how to prevent it from happening, again.
    Finally with the general election just a few months away 
and the right to vote at stake for hundreds of thousands of 
aspiring Americans, USCIS is created a naturalization crisis.
    The average processing time for a citizenship application 
has doubled to 10 months and is much worse than average in many 
of your own congressional districts.
    Citizenship applicants are waiting as long as 18 months in 
Santa Anna, Swarthmore, and Houston, and well over 2 years in 
North Dakota, Phoenix, Miami, and Seattle.
    Worst still, USCIS is not remotely on track to naturalize 
the next 350,000 people in line for naturalization who would 
normally be eligible to vote this November, but still haven't 
had their interviews yet. These aspiring Americans are young 
and old, Republicans and Democrats, living across the country.
    An estimated 68,000 are in California; 3,300 in Colorado; 
40,000 in Florida; 200 in North Dakota; 8,000 in Pennsylvania; 
27,000 in Texas; and 6,100 in Washington State, all of them at 
risk of not being able to vote this year.
    This dereliction of duty is hiding in plain sight. Unless 
USCIS immediately expedites naturalization interviews and 
administers same-day oath ceremonies, then these 315,000 
citizenship applicants, some of whom have been in line for 
nearly 2 years, will be disenfranchised.
    Thank you for your time, and I look forward to any 
questions you might have.
    [The statement of Mr. Rand follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much. The gentleman yields 
back.
    We will now hear from Ms. Vaughan for 5 minutes.

                  TESTIMONY OF JESSICA VAUGHAN

    Ms. Vaughn. Thank you very much the opportunity to testify 
today.
    The Trump Administration has implemented many sound 
policies and regulations to restore the integrity of our legal 
immigration system. It's now administered in a way that aligns 
more closely with our national interests, better protects U.S. 
workers, and makes it harder for special interests, bad actors, 
and opportunists to gain the system. Claims that these changes 
are meant to block or delay legal immigration are baseless.
    In fact, according to USCIS data, in the last year 
processing times have been constant or improved for the 
majority of applicants. Some of the processing backlogs have 
been significantly reduced, and USCIS approved the highest 
number of new citizens in 11 years. Nevertheless, a variety of 
chronic problems aggravated by external pressures, including 
the coronavirus pandemic, continue to challenge the Agency.
    Besides the crushing workload, rampant fraud, and influx of 
frivolous applications, USCIS operates under an obsolete 
funding process that hampers its progress. Moreover, there are 
too many large benefit programs like DACA, new visas, and 
asylum applications that are a fiscal drag on the Agency 
because the applicants don't pay the full cost of processing 
their applications.
    The new fee Rule will help in the short-term, but to ensure 
the Agency's sustainability, Congress should reduce the number 
of fee-exempt programs and reform the fee collection and 
appropriations process to give Congress more oversight over how 
USCIS uses its revenue and also provide that stability.
    USCIS has the challenge of balancing the imperative to 
correctly and fairly adjudicate applications with the 
expectation for them to be adjudicated within a reasonable 
timeframe. Further, the Agency is constantly subject to 
pressure from special interest groups like employers that 
sponsor a lot of foreign workers and immigration and legal aid 
attorneys who badger the Agency to adopt policies that they 
think will favor their clients or their own practices.
    For too long, USCIS leadership succumbed to this pressure 
at the expense of correct and fair adjudication. The results 
were unsatisfactory for the Nation and especially for those in 
the U.S. workforce who have suffered harm because of rushed 
decisions, tolerance of fraud, or questionable prioritization 
of cases with serious consequences sometimes.
    Recall the case of Tashfeen Malik, who 5 years ago with her 
husband, killed 14 Americans and wounded 22 others in a 
terrorist attack in San Bernardino, California. She originally 
entered on a fiancee visa and investigations after the attack 
revealed that USCIS and the State Department were careless with 
her application, missing several indicators that should have 
led to a denial.
    At the time of the attack, her brother-in-law was busy 
arranging a fraudulent green card marriage between one of their 
accomplices in the attack, an illegal alien.
    More recently, the Trump Administration has prosecuted and 
denaturalized dozens of terrorists, war criminals, human rights 
violators, and other serious criminals who lied, used false 
documents, or otherwise fraudulently obtained immigration 
benefits that put them on the path to citizenship.
    Denaturalization of these people is not an attack on 
immigrants, but an attack on fraud. Often it is legal 
immigrants in the community that tip off authorities as to who 
these people really are.
    Two days ago, the Department of Justice announced a 
settlement deal with Asta CRS, Incorporated, a technology 
staffing company that flagrantly discriminated against U.S. 
workers in hiring. Asta has placed hundreds of visa workers at 
companies like Anthem, Barclay, FedEx, Capital One, and CVS, 
and sponsored some employees for green cards while illegally 
shunning U.S. workers.
    It's not anti-immigrant to bust these companies. In fact, 
it opens job opportunities for all legal U.S. workers.
    Last November, a Federal grand jury indicted two South 
Korean nationals for submitting 117 bogus applications for 
alien workers, enabling 125 aliens to live in the U.S. after 
paying visa fees of tens of thousands of dollars. They put 
fraudulent tax and other corporate documents in their client's 
application to deceive USCIS adjudicators and falsely claim 
that their clients could not find suitable U.S. workers.
    These illegal schemes clog the system and prevent 
legitimate applicants from accessing the system. So, 
immigration adjudications cannot be done on the cheap or 
considered pointless red tape. The new set of fees that USCIS 
is about to implement will help, but it's not going to be 
enough because of the other chronic problems in funding.
    Too many of the application fees are still set artificially 
low. For example, under the new fee structure, asylum 
applicants will pay a fee for the first time, $50, but the 
actual direct processing cost for these applications is $366.
    When you count the indirect processing cost, the fee really 
should be set at $1,800. So, asylum applicants, most of whom 
are actually ultimately not found qualified for the benefit, 
will continue to be subsidized by legal immigrants and their 
sponsors.
    Fee waivers are another problem. So, it's time for Congress 
to consider moving to an appropriation of the fees that USCIS 
collects in order to get that stability and offer--
    Ms. Lofgren. The gentlelady's time is expired. If you could 
wrap up, that would be helpful.
    Ms. Vaughn. Thank you very much.
    [The statement of Ms. Vaughn follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much.
    All our witnesses' testimony is supplemented by their full 
written testimony and now is the time when Members of the 
Committee may ask questions of this panel, and I will begin.
    I want to talk to you first, Mr. Knowles, because I am so 
concerned and sympathetic with the professional staff at USCIS. 
I want you to know that our staff and the staff of the 
Appropriations Committee has been in communication with USCIS 
for months trying to come up with a solution.
    I am confident that Mr. Edlow's testimony today that he 
wanted to find a resolution is, in fact, correct. I'm not sure 
everybody in the Administration is where he is, but we are 
doing our best; however, we actually need a formal request to 
the Appropriations Committee that meets their requirements, and 
I know that the Administration knows how to do that because 
they make those requests frequently.
    So, we hope to get past that barrier and I'm hoping that 
this hearing will help move us past some of the barriers that 
seem to have come up.
    I want to mention to Ms. Dalal-Dheini, if I may, a 
question. We've heard a lot about the mismanagement and poor 
implementation of policies that led to the budget crisis.
    Now, you worked at USCIS for more than 10 years through 
three different presidential Administrations and you've 
discussed in your testimony certain factors that previous 
Administrations would consider prior to implementing policy 
changes to ensure it goes smoothly.
    Now, what factors would a responsible leadership at the 
department consider when rolling out new policies and 
procedures and how might we work with the Administration to 
make sure that an orderly process is included so that we don't 
end up back in the same spot in another month?
    Ms. Dalal-Dheini. Thank you, Chair.
    Yeah, I've experienced working through three different 
Administrations and working on rolling out policies, and what 
was very almost a reflexive nature of what would happen in the 
process of rolling out policies was that the impact on the 
operations and the adjudications would have a coequal voice at 
the table. It would be discussed.
    If we do this, then X is going to happen to adjudication. 
It would look at the bigger picture of how it would work in the 
grand scheme of things, but what's also important is also a 
constant review of the impact of the policy after it's been 
rolled out. What is the actual effect?
    You can assume an effect before it rolls out, but then you 
have to continue analyzing what that effect is. That's why AILA 
has been a big supporter of the bipartisan Case Backlog and 
Transparency Act because it mandates those reporting 
requirements to ensure that USCIS is paying attention to the 
impact of the policies that they roll out.
    Ms. Lofgren. That's very helpful.
    Now, I'd like to ask Mr. Rand, your testimony was very 
helpful, but you are here not only because of your expertise, 
but because of your knowledge about the intersection of 
immigration policy and science.
    Are you seeing an impact on science in the United States 
through the way the Administration is administering our 
immigration laws at this point?
    Mr. Rand. Thank you, Chair Lofgren. Certainly, we're seeing 
an impact. It's an incredibly adverse impact from the entire 
array of policies this Administration continues to impose to 
restrict legal immigration across the board.
    It's almost impossible to think of any policy over the past 
3 and a half years that is actually improved the ability to 
serve its traditional roles, a magnet for international talent.
    I would just point out one thing--many, I could point out. 
In Mr. Edlow's testimony, he talked over and over again about 
safeguarding the Nation's immigration system and ensuring that 
only those who are eligible for a benefit receive one.
    Let's talk about science for a second. There's maybe one 
green card category also known as the genius visa for people of 
extraordinary ability that has been traditionally a way for the 
United States to attract the best and brightest scientists and 
researchers from around the world.
    Approvals are down 26 percentage points since 2017. That's 
a quarter. It defies belief that a quarter of the genius visa 
applicants suddenly don't deserve them or never did, including 
a Nobel laureate who was rejected, why? Because USCIS wanted 
more information on the interpreter who translated the Nobel 
award.
    So, this Administration is doing extraordinary absurd 
things that are harming America's long-term competitiveness in 
science technology, engineering, and math.
    Ms. Lofgren. Thank you very much for that testimony and my 
time is expired.
    I understand Mr. Buck had to leave, but Ms. Lesko, you are 
recognized for your 5 minutes.
    Ms. Lesko. Thank you, Madam Chair.
    Thank you to all the witnesses today.
    Before I ask questions, I first want to make a statement 
that I think it's absolutely astonishing that a number of my 
Democratic colleagues on Judiciary Committee and in the whole 
caucus refused to say anything or condemn outright rioting, 
looting in our cities, deny that they're really was any 
takeover in Seattle, CHAZ, chop zone, even though, there are 
shootings and killings, think it's perfectly fine to set up 
sanctuary cities, really prioritize illegal aliens, but then 
chastise me when my mask falls down--oh, my goodness--down here 
and my nose is exposed. I just find it absolutely ludicrous.
    In any case, I have a question for Ms. Vaughan.
    Ms. Vaughan, what is the importance of USCIS detecting 
fraud?
    Ms. Vaughn. Well, it's critically important for a number of 
reasons. First, it's important for our national security 
because we know from post-mortems of case after case of 
terrorists who were foreign nationals who carried out attacks 
here that they often use immigration fraud to get into the 
country to further their agenda and carry out these attacks. As 
I mentioned, the San Bernardino attack is one of the most 
concerning examples.
    The other reason fraud is a problem is because it destroys 
the integrity of our legal immigration system. It's no point in 
having rules for the limited green cards and visas that are 
available if they're going to be subverted through fraud.
    The people who suffer from that are not only the sponsors 
of these immigrants or workers, but also those who are coming 
on legitimate applications who find that their application 
times are taking longer and longer because the Agency has to 
weed through so much fraud and frivolous applications.
    The asylum system is the most obvious example of that where 
we find that only a small percentage of the people who actually 
submit those applications will be found qualified for that, if 
they even show up for their hearings.
    I saw this morning that something like 300-some thousand 
asylum applications that are now pending and The Wall Street 
Journal had an article this morning about a woman who is a 
Uighur from China who's also a student in Rhode Island whose 
application has been on hold for years because the Agency has 
this backlog of hundreds of thousands of cases, many of them 
were illegal border crossers who heard that if they made an 
asylum claim that they would be allowed to stay in this country 
almost indefinitely.
    Those are all the cases who, by the way, have not been 
paying a fee for the asylum application that are clogging up 
the system that prevent USCIS officers from moving forward with 
these cases and getting to approve the bonified cases within 
them.
    The same is true of family-based applications and 
employment-based applications. That's what happened when DACA 
was implemented.
    The DACA cases were made a priority, even though, they, 
too, were not paying a fee that really covered the full cost of 
their application. At the time that meant that U.S. citizens 
who were trying to sponsor their spouses and children and 
employers who were trying to get needed workers here on visas 
and getting green cards approved, all those cases were shifted 
to the slow lane so that the DACA cases could be prioritized, 
and this eventually is a real drag on the system.
    I don't think the taxpayers should have to cover the cost 
of our legal immigration system, but I also don't think that 
legal immigrants should have to subsidize the processing of 
benefits for people who haven't come here legitimately and who 
are merely trying to gain the system and commit fraud.
    Ms. Lesko. Well, thank you. I only have 16 seconds left, so 
I yield back my time, Madam Chair.
    Ms. Lofgren. The gentlelady yields back.
    At this point I would like to recognize the gentlelady from 
Washington, Ms. Jayapal, for 5 minutes.
    Ms. Jayapal. Thank you, Madam Chair, and thank you all so 
much for being here. I really appreciate it.
    This is a subject that's near and dear to my heart as some 
of you know. I'm one of only 14 naturalized citizens to serve 
in the United States Congress and it took me 17 years to get my 
citizenship and series of alphabet soup of visas. It was a 
difficult process, but I know that I'm one of the lucky ones, 
and I really deeply appreciate the work that the employees at 
USCIS do. Thank you, Mr. Knowles.
    I appreciate the work of AILA and all of you that are here 
talking about how critically important naturalization and 
citizenship services are to this country. Despite the Trump 
Administration's harsh rhetoric that would have you believe 
that no one is in compliance with U.S. immigration laws, there 
are actually millions of people that are bending over backwards 
to do everything that we ask of them, and yet Trump's USCIS, 
the USCIS as it has evolved under this President, is making 
that process as difficult and slow and expensive as possible.
    People across the country are experiencing this every day 
as they face unprecedented wait times, overly stringent 
vetting, and will soon pay drastically higher fees.
    So, Ms. Dalal-Dheini, let me start with you. Do you agree 
with the statement that there has been purposeful attempt to 
dismantle USCIS and legal immigration processes?
    Ms. Dalal-Dheini. Thank you, Representative.
    Yes, I do agree with that statement because if you look at 
the policies that have been enacted, they deliberately decrease 
USCIS efficiency, drive up the cost of adjudication, slow down 
case processing, and discourage individuals from applying 
because the system has gotten so hard to navigate.
    It's become much more complicated, complex, and although 
the claims are that it's for fraud detection or to weed out 
frivolous applications, there hasn't been evidence to that.
    Ms. Jayapal. Mr. Rand for an agency to undergo such drastic 
changes as we've seen at USCIS, is that a decision that stems 
from the Agency itself or from the White House? Where is that 
coming from?
    Mr. Rand. Thank you, Vice Chair Jayapal. I think it's 
pretty clear that it's the White House that is dismantling from 
the top down our immigration system, and it's eliminated at 
this point any dissenting opinions from the political ranks 
throughout DHS, including USCIS.
    The White House and USCIS' leadership are working together 
hand in glove every day to create these massive new barriers to 
immigration, including legal immigration. I mean, just look at 
the fact that USCIS is still on paper headed by Ken Cuccinelli, 
a man who has compared immigrants to rats and who often gets to 
use the White House briefing room to spread misinformation.
    Ms. Jayapal. So, as much as the White House would like us 
to think that some of their efforts are around undocumented 
immigrants, people who have not been afforded any fair process 
to be able to actually legalize their status, it seems that 
this is a concerted effort to end legal immigration as we know 
it.
    We've heard a lot today about the budget crisis facing the 
Agency. Ms. Dalal-Dheini, is it your belief that this crisis is 
as a result of decreased applications due to the pandemic or an 
outcome of an agencies that actually trying to dismantle 
itself?
    Ms. Dalal-Dheini. So, USCIS identified in its proposed fee 
Rule back in November of 2019 that it would have a $1.5 billion 
deficit at the end of the fiscal year. So, clearly, coronavirus 
isn't the only problem. There may have been a decrease in 
receipts, but what we have seen is that there has been a 
decrease in receipts well before that, but an increase in 
personnel and an increase in processing times.
    So, clearly, that's not a good business model if you want 
to be efficient and work like a business. You have to be able 
to maximize your efficiency to deliver the best service. So, 
yes, I do think it's been intentional to do that.
    You've seen some policies that they've rolled out. For 
example, Mr. Rand mentioned the adjustment of status 
interviews, which have been mandated for every single 
employment-based adjustment interview. These are individuals 
who have been in this country for years on end, who have gone 
through the system, have been vetted multiple times. The 
average case processing time for those have increased by 58 
percent in the matter of a few--in 2 fiscal years.
    Ms. Jayapal. Mr. Knowles, my time is running out, but I 
first want to just say thank you, to you and the many dedicated 
employees at USCIS. We deeply, deeply appreciate what you do.
    Do you agree that this shift that has been described here 
is at the root of the budgetary problems facing the Agency?
    Mr. Knowles. I believe that that is a large part of it. 
Certainly, the pandemic is in sort of a perfect storm scenario. 
Yes, I think the budget crisis is largely a result of the 
Administration's policies on immigration.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jayapal. Thank you, Madam Chair. I yield back.
    Ms. Lofgren. Thank you very much.
    The gentleman from California, Mr. Correa, is recognized.
    Mr. Correa. Thank you, Madam Chair.
    First, let me start out by, Mr. Knowles, I just want to 
thank you and your Members of your group for your support and 
good work supporting our communities as they try to become 
citizens and pursue the American Dream. A lot of your union 
Members are my constituents, and I hear from them every day, 
success stories and horror stories. So, again, thank you very 
much. As you were talking, I was texting a couple of my 
constituents who are very concerned about this issue.
    I wanted to address some questions, comments, to Mr. Doug 
Rand, actually to all of you. I'm going to ask the same 
question to all of you. Mr. Doug Rand, you mentioned there was 
an increase in personnel of 20 percent or 20,000 new hires to 
detect fraud. Is there any way to figure out whether the--under 
the cost-benefit analysis whether this increase in personnel to 
detect fraud actually resulted in more fraud being detected or 
it simply just slowed down the system?
    Because as you know and I know, if you apply an adjustment 
of status or citizenship and you lie in that application, later 
the authorities can come back and pull that adjustment of 
status or that citizenship out from under you. So, my question 
to you is, has this new fraud effort yielded any results?
    Mr. Rand. Representative Correa, I appreciate that 
question. I can say very confidently that USCIS has provided no 
data or backup to the public to justify its huge staffing surge 
in terms of fraud detection. If that effort is bearing any 
fruit, we have yet to see any evidence of it despite anecdotal 
reports that are always going to be available.
    I would point out that safeguarding our Nation's 
immigration system doesn't just mean ensuring that those who 
aren't eligible don't receive a benefit. Everybody agrees with 
that. It also means ensuring that people who are eligible to 
receive their benefit, and that is something that this 
Administration has guaranteed is not going to happen.
    Take the public charge rule. Thousands of people are going 
to be denied green cards based on wealth, health, education, 
disability, and a host of other arbitrary factors even if they 
are unlikely to use welfare and other social safety net 
programs in the future. So, this Administration fails to admit 
that integrity goes both ways. It's not just about preventing 
fraud.
    Mr. Correa. Mr. Knowles, does that public charge Rule take 
into consideration the taxes that these individuals pay into 
the system at every level, Federal, State, and local?
    Mr. Knowles. I can't quite speak to the Agency's policies 
on that, but I believe I could say that our union agrees with 
the statement of Mr. Rand that he just made.
    Mr. Correa. Mr. Rand, let me ask you that same question. 
Does the public charge rule, does it consider the taxes that 
these workers pay into the system, Federal State, and local?
    Mr. Rand. Absolutely not.
    Mr. Correa. So, you're just looking at the cost and not the 
expense side--or the benefits side of having a productive work 
in our society?
    Mr. Rand. That's correct.
    Mr. Correa. Okay. Very quickly, I'm running out of time, a 
minute and a half here, a little bit less. I'm going to ask a 
quick question to the other Members of the panel, which is 
should we support a full audit, full transparency? Mr. Knowles, 
do you support audit transparency?
    Mr. Knowles. Always.
    Mr. Correa. Ms. Vaughan?
    Ms. Vaughan. Yes, I do support audits and transparency for 
the process and especially on the matter of fee waivers. I 
think that everyone should get more information on the extent 
to which USCIS is giving fee waivers.
    Mr. Correa. Thank you. I'm running out of time.
    Madam Sharvari, do you support that?
    Ms. Dalal-Dheini. Absolutely. Transparency is necessary to 
shine a light on the broken system.
    Mr. Correa. I have so many other questions, but very 
quickly, Ms. Vaughan, I'm going to come back to you and very 
quickly ask, do you support a merit-based immigration system?
    Ms. Vaughan. Yes, I do.
    Mr. Correa. Where would a farm worker fit in that system?
    Ms. Vaughan. Well, farm workers right now come in mostly 
through the H-2A nonimmigrant visa program. It's a temporary 
work program. In our current immigration system--
    Mr. Correa. There's a lot of undocumented immigration farm 
workers out there working without a green card. How would they 
fit into that system?
    Ms. Vaughan. Well--
    Ms. Lofgren. The gentleman's time is expired.
    Mr. Correa. Thank you, Madam Chair. Thank you.
    Ms. Lofgren. Thank you.
    We will now recognize the gentlelady from Florida, Ms. 
Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you so much, Madam Chair.
    I'm with my colleague, my good friend, Representative 
Jayapal. I'm one of the 14 naturalized citizens in this 
country, and it's incredible to me how we refer to immigrants, 
like Representative Lesko, as aliens. We're humans. We 
contribute greatly to the economy of the United States.
    Actually, immigrants contributed more than $11 billion in 
taxes. The reason why there's so many undocumented immigrants 
in this country, it's because of the failure of the agencies 
that process these applications.
    Most immigrants that I have spoken to want to go through 
the process to get legal documentation so that they can 
continue to pay their taxes, stop hiding behind the attacks of 
the Trump Administration, and continue to do the work that they 
came to do. Most of them have been here for decades.
    We need to find a way for us to process these applications 
and provide a path for legal, whether it's citizenship, legal 
resident status. The attacks against immigrants has got to 
stop. There are so many myths, and I would like for Mr. Rand to 
comment on this.
    I know that, since the Trump Administration took over, in 
2017, refugee admissions dropped to the lowest since 2002. He 
has enacted stricter restrictions to H-B1 visas. He's trying to 
follow a merit-based immigration system. Mr. Rand, if you can 
comment on how this would affect the American economy because I 
know that maybe some of my colleagues who talk a lot about the 
economy may start paying some attention.
    I can tell you in my area, Mr. Rand, most Republicans--I 
have an area where there are thousands and thousands of 
immigrants that live in my area in south Florida that came from 
another country who are entrepreneurs, who are contributing to 
the economy, and Republicans have asked for immigration reform. 
They want them to remain here legally, but there's not a path.
    I want you to talk on the effects that the Trump 
Administration immigration policies can affect our economy and 
our economic recovery. If you can comment on that, please.
    Mr. Rand. Thank you so much, Representative.
    I think one could go on and on about the economic benefits 
of immigration. That is something that there's almost no 
dissent among reputable economists about. Immigration of all 
skill levels, high- and low-wage, builds our economy. It is a 
myth that immigrants steal jobs from U.S. citizens. We should 
be so lucky as to have more immigrants who become new 
Americans, like yourself and so many others.
    I would just also add that, when comprehensive immigration 
reform passed the Senate with overwhelming bipartisan support, 
at that time in 2013, the nonpartisan Congressional Budget 
Office noted that, if this had passed and had increased 
immigration through legalization of the undocumented as well as 
increased future flows, this would have put the Social Security 
trust fund on much firmer footing, this would have increased 
our GDP dramatically, this would have reduced budget deficits 
dramatically, for all those who say they care about fiscal 
responsibility, and would have increased U.S. worker wages.
    So, without a doubt, if you do the opposite of that, which 
this Administration is trying to do, our economy is going to 
take a hit in the near and long term.
    Ms. Mucarsel-Powell. Mr. Rand, and since we're on the 
topic, do you think that immigrants, undocumented immigrants 
are taking jobs away from native-born Americans?
    Mr. Rand. There is no evidence in the economic literature 
of that, despite what many people would say rhetorically.
    Ms. Mucarsel-Powell. Thank you.
    Mr. Knowles, I want to shift to you. There's been a lot of 
criticism, particularly from my colleagues across the aisle, 
that asylum and refugee applications were not vetted properly 
prior to this Administration. Do you agree with that 
characterization?
    Mr. Knowles. I absolutely reject that characterization. I 
think we could say that the asylum and refugee programs have 
been among the most rigorous, most professional. We certainly 
provide vital services to protecting refugees. We also do a 
good job of fighting fraud and combating terrorism. We're on 
the front lines.
    Ms. Mucarsel-Powell. Thank you, Mr. Knowles.
    Mr. Knowles. I would appreciate more support for what we 
do.
    Ms. Mucarsel-Powell. I know. You're career professionals, 
and we're going to do whatever we can to support all of the 
employees who are especially now facing furloughs in the 
future.
    Can you just describe quickly how asylum applicants were 
vetted in previous Administrations so people understand that 
there's a very strict vetting process? When you hear fraud, and 
we don't have a lot of data that provides those--
    Mr. Knowles. Well--
    Ms. Lofgren. The gentlelady's time has expired. The witness 
will be--if you could very quickly.
    Mr. Knowles. Yeah. If I could just say that the vetting 
process is very careful, I would say extremely careful. If you 
just look at our performance standards for asylum officers, 60 
percent of our performance metrics and measures focus on how 
well we determine credibility, how well we do security checks 
and the like. So, we're very--
    Ms. Lofgren. Mr. Knowles, perhaps you could provide a more 
fulsome outline to us for the written record, if you would, 
please.
    Mr. Knowles. We could send you our performance metrics 
plan.
    Ms. Lofgren. Thank you very much. We'll now turn--
    Mr. Knowles. We do a careful job.
    Ms. Lofgren. Thank you very much.
    Ms. Scanlon, you are now recognized for 5 minutes.
    Ms. Scanlon. Thank you very much.
    Mr. Rand, just to follow up on one point. I asked the USCIS 
representative about the suggestion that funds be transferred 
from CIS to ICE, and he said they haven't transferred that 
money. Are there indications that CIS has some interest in 
diverting funds to ICE?
    Mr. Rand. Representative Scanlon, there are certainly 
explicit indications in that the Trump White House has 
requested the authority to transfer hundreds of millions of 
dollars or more of USCIS user fees to ICE in its budget 
request, and USCIS reiterated this request in its proposed fee 
rule. So, they've asked for permission. We don't have evidence 
that they have actually executed those transfers in defiance of 
Congress.
    I would say, all that Mr. Edlow told this Subcommittee just 
now is that, to his knowledge, such transfers haven't happened 
in the last two fiscal years, and, of course, this 
Administration has lasted for more than 2 fiscal years. So, I 
certainly think it would be worthwhile to get a clear, 
unequivocal answer to that very important question.
    At the same time, Mr. Edlow and others have also admitted 
that, even if funds were not transferred, personnel resources 
were seconded over to ICE at a time when USCIS can ill afford 
to lose any resources in its losing battle to beat back 
skyrocketing backlogs and wait times.
    Ms. Scanlon. Thank you. Thank you for helping to clarify 
that.
    Ms. Dalal-Dheini, given your background, which includes 
having worked at CIS for more than a decade, can you describe 
in lay terms the impact that the proposed furlough would have 
on CIS personnel?
    Ms. Dalal-Dheini. Yeah, absolutely. I mean, I can give you 
examples of individuals who I know have gotten furlough 
notices. You have a single mother of a toddler who recently 
purchased a home. You have a recent master's degree graduate 
who just secured a position as an asylum officer and is 
dependent on healthcare insurance for chronic healthcare 
conditions.
    You have a dedicated employee who served the Agency for 
more than 20 years and is nearing retirement. You have an 
experienced professional who has two young children whose 
spouse has already been laid off due to COVID-19. So, those are 
some.
    Then there's also the impact of what will happen to U.S. 
families, businesses: People won't be able to vote in time. 
Individuals stuck in the backlog for naturalization won't be 
able to vote. DACA recipients will not be able to renew their 
benefits. Asylum applicants will face increased delays. 
Critically, businesses won't be able to hire or retain 
essential employees needed to recover from the global economic 
crisis that we are now facing.
    Ms. Scanlon. Okay. Thank you.
    Just to clarify, so we have people in this country who've 
met all the requirements for citizenship; just because of the 
backlog, they haven't actually received their citizenship yet, 
and as a result, they can't vote in this year's election?
    Ms. Dalal-Dheini. So, there's a backlog of individuals who 
are waiting to be administered the oath ceremony, and after 
they are, then they're citizens and would be eligible to 
register to vote.
    Ms. Scanlon. Okay. We've heard a lot about mismanagement 
and policies that have led to the current budget crisis. What 
factors do you think responsible leadership should be 
considering when rolling out new policies and procedures for 
CIS?
    Ms. Dalal-Dheini. Well, I think the issue is really to 
consider how much--to be able to properly balance the fraud 
detection, the need to detect that, and extreme vetting, right. 
There's a difference between understanding who is eligible and 
not eligible, but then the vetting that this Administration has 
taken to it goes to such an extent that it's just holding 
people back even though they're eligible. It's not about 
security. It's about deterring people from becoming American 
citizens.
    Ms. Scanlon. So, nobody here is advocating that we just 
tear down the borders and let everybody in. We're still talking 
about enforcing security?
    Ms. Dalal-Dheini. Absolutely. I mean, as an employee of 
USCIS for over a decade, it was important to balance the need 
to protect our homeland with administering faithfully the 
Immigration Nationality Act. It's honoring our heritage to 
welcome immigrants to benefit our country.
    Ms. Scanlon. Thank you. I appreciate that clarification 
given some of the rhetoric that we've heard.
    Are there any accountability mechanisms that Congress 
should consider before agreeing to CIS' request for emergency 
funding?
    Ms. Dalal-Dheini. So, as I mentioned in my testimony, there 
are a few. First, we really need to make sure that their 
inefficiencies are not passed off to the customers unless it's 
by their choice. The second is reporting requirements because, 
since USCIS is 97 percent fee funded, Congress does not have 
the opportunity to provide oversight, and reporting 
requirements need to be about the status of the backlog, about 
the processing of different cases. In addition, they need to 
implement cost-efficient measures. Many of the policies rolled 
out--
    Ms. Lofgren. The gentlelady's time has expired. It would be 
wonderful if we could get the complete list for the written 
record, and we will take that into account.
    All time has now expired for questioning of our witnesses, 
and we do have a deadline of 9 o'clock to conclude. So, I will 
thank the witnesses, both Mr. Edlow and the second panel, for 
being with us and participating in this hearing.
    Without objection, by unanimous consent, I will put into 
the record statements from 20 organizations that have asked to 
have their statements made part of the record. I'll note also 
that Members have 5 legislative days to submit additional 
written questions for the witnesses or to provide additional 
material for the record. If we do have questions for you, we'd 
ask that you do answer them. We appreciate your participation 
here today.
   

                       MS. LOFGREN FOR THE RECORD

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    I'll just close by saying it's obvious that we need to come 
up with a solution for what's going on here, and that involves 
money, but it also involves policy. When the Nobel Prize winner 
is being second-guessed, the Nobel Committee is being second 
guessed on the scientist, Houston, we have a problem.
    So, let's hope that we can resolve some of those problems, 
get this agency back on the right track, and certainly do it in 
a timeframe that allows the much valued professional staff to 
have to stop worrying about their own personal future, which is 
only natural.
    At this point, I will thank everyone for participating, and 
we are adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]
     

                                APPENDIX

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
